EXHIBIT A

U.S. v. BIKUNDI
Cite as 926 F.3d 761 (D.C. Cir. 2019)

UNITED STATES of America, Appellee
v.
Michael D. BIKUNDI, Sr., Appellant
No. 16-3066
Consolidated with 16-3067
United States Court of Appeals,
District of Columbia Circuit.
Argued October 23, 2018
Decided June 11, 2019
Background: Defendants, a married couple, were convicted, after a jury trial in the
United States District Court for the District of Columbia, of health care fraud,
conspiracy to commit health care fraud,
money laundering, and conspiracy to commit money laundering. Following denial,
2016 WL 912169, of their motions for new
trial or judgment of acquittal, defendants
appealed.
Holdings: The Court of Appeals held that:
(1) defendants’ statutory speedy trial
rights were not violated;
(2) defendant’s constitutional speedy trial
rights were not violated;
(3) denial of severance motion was not
abuse of discretion;
(4) evidence was sufficient to support convictions for money laundering;
(5) evidence supported restitution order;
and
(6) forfeitures did not violate Constitution’s Excessive Fines Clause.
Affirmed.
Rogers, Circuit Judge, filed concurring
opinion.
1. Criminal Law O1144.13(3)
On appeal of criminal convictions,
Court of Appeals views the evidence in the
light most favorable to the government.
2. Criminal Law O577.13
District court’s consideration of the
lengthy time needed for discovery and its

761

impact on defense counsel’s ability to prepare for trial demonstrated that the court
adequately weighed defendant’s interests
when considering the complexity of the
case and the need for ends-of-justice continuances in the period between her arraignment and the filing of the superseding indictment 18 months later, supporting
determination that the pretrial proceedings were not so delayed as to violate
defendant’s statutory speedy trial rights.
18 U.S.C.A. § 3161(h)(7).
3. Criminal Law O577.13
Under the Speedy Trial Act, the substantive balancing underlying a decision to
grant an ends-of-justice continuance is entrusted to a district court’s sound discretion but the findings requirement imposes
procedural strictness.
18 U.S.C.A.
§ 3161(h)(7)(A).
4. Criminal Law O577.13
Under the Speedy Trial Act, a court’s
findings in deciding to grant an ends-ofjustice continuance must indicate that it
seriously weighed the benefits of granting
the continuance against the strong public
and private interests served by speedy
trials. 18 U.S.C.A. § 3161(h)(7)(A).
5. Criminal Law O577.13
There are no magic words that must
be employed to justify Speedy Trial Act’s
ends-of-justice exclusion of time; mere reference to some rough justice basis or a
passing reference to the case’s complexity
is
insufficient.
18
U.S.C.A.
§ 3161(h)(7)(A).
6. Criminal Law O577.13
A district court’s failure to make the
requisite finding that the ends of justice
served by the granting of an ends-of-justice continuance outweigh the best interests of the public and the defendant in a
speedy trial means the delay is to be

762

926 FEDERAL REPORTER, 3d SERIES

counted against the defendant’s speedytrial period. 18 U.S.C.A. § 3161(h)(7)(A).
7. Criminal Law O1139, 1158.18
Court of Appeals’ review of Speedy
Trial Act claims is de novo on questions of
law and for clear error for factual findings.
18 U.S.C.A. § 3161(h)(7)(A).
8. Criminal Law O1134.42
Since district court granted five endsof-justice continuances in the period between her arraignment and the filing of
the superseding indictment eighteen
months later, and since defendant, in her
Speedy Trial Act claim, challenged the sufficiency of the district court’s finding for
the last three continuances, Court of Appeals’ review would be limited to those
time periods. 18 U.S.C.A. § 3161(h)(7)(A).
9. Criminal Law O577.13
Although best practice warrants contemporaneous, specific explanation by the
district court of its findings each time it
grants and ends-of-justice continuance,
Speedy Trial Act does not require a district court to repeat all of the details of its
findings on the record each time it grants
such a continuance, particularly where the
charged offenses indicate why discovery
would be prolonged.
18 U.S.C.A.
§ 3161(h)(7)(A).
10. Criminal Law O577.10(9), 577.13
District court’s consideration of the
lengthy time needed for discovery and its
impact on defense counsel’s ability to prepare for trial demonstrated that the court,
in granting the last three of a series of
continuances, adequately weighed the public interest that trial not proceed prematurely, supporting determination that the
pretrial proceedings were not so delayed
as to violate defendant’s statutory speedy
trial rights; defendant consented to the
next-to-last continuance, and in granting
the final continuance, the court referenced
the fact that the underlying circumstances
regarding discovery in a complex fraud

case involving millions of dollars in health
care payments had not changed. 18
U.S.C.A. § 3161(h)(7)(A).
11. Criminal Law O577.4
Sixth Amendment to the United
States Constitution guarantees that in all
criminal prosecutions, the accused shall enjoy the right to a speedy trial. U.S. Const.
Amend. 6.
12. Criminal Law O577.10(1)
The Barker-Doggett balancing test for
determining whether a defendant has been
deprived of his or her constitutional
speedy trial right considers length of delay, reason for the delay, defendant’s assertion of his right, and prejudice to defendant. U.S. Const. Amend. 6.
13. Criminal Law O577.10(1)
No single factor in the Barker-Doggett
balancing test is necessary or sufficient to
find a deprivation of the Sixth Amendment
right to a speedy trial; the factors are
related and must be considered together.
U.S. Const. Amend. 6.
14. Criminal Law O577.15(4), 577.16(8)
Under the Sixth Amendment, to trigger the Barker-Doggett speedy trial analysis, length of delay between accusation and
trial must cross the threshold dividing ordinary from presumptively prejudicial delay; generally, a delay of one year is presumptively prejudicial.
U.S. Const.
Amend. 6.
15. Criminal Law O1139
Court of Appeals reviews district
court’s application of the Barker-Doggett
factors de novo. U.S. Const. Amend. 6.
16. Criminal Law O577.10(3), 577.15(1)
Although the delay of approximately
18 months in defendant’s prosecution for
health care fraud, conspiracy to commit
health care fraud, money laundering, and
conspiracy to commit money laundering

U.S. v. BIKUNDI
Cite as 926 F.3d 761 (D.C. Cir. 2019)

triggered inquiry into whether she was
deprived of her constitutional speedy trial
right, factors of the length of the delay and
the reason for the delay weighed in favor
of government; defendant’s case involved
complex conspiracy charges with complicated evidence and multiple defendants,
requiring voluminous discovery, defendant
had herself filed multiple pretrial motions
which contributed to the length of the
proceedings, as well as an interlocutory
appeal, and she consented to two of the
continuances that were granted. U.S.
Const. Amend. 6.
17. Criminal Law O577.10(7)
Under the Sixth Amendment’s speedy
trial guarantee, the delay that can be tolerated in prosecution for an ordinary street
crime is considerably less than the delay
that can be tolerated for a serious, complex conspiracy charge.
U.S. Const.
Amend. 6.
18. Criminal Law O577.10(9, 10)
Fact that defendant did not assert her
constitutional speedy trial rights until she
filed a motion to dismiss 16 months after
her arraignment weighed in government’s
favor; defendant consented to exclusion of
time under the Speedy Trial Act and did
not assert her speedy trial rights early or
often. U.S. Const. Amend. 6; 18 U.S.C.A.
§ 3161(h)(7)(A).
19. Criminal Law O577.16(4)
Absent any explanation by defendant
as to how the delay of her trial for over
one year impaired her defense, factor of
the prejudice to defendant favored government. U.S. Const. Amend. 6.
20. Criminal Law O577.16(8)
The presumptive prejudice arising
from delay of trial for over one year cannot alone carry a Sixth Amendment claim
without regard to the other Barker-Doggett criteria. U.S. Const. Amend. 6.

763

21. Criminal Law O622.7(4, 8)
District court did not abuse its discretion, in prosecution for, inter alia, conspiracy to commit health care fraud, in denying
defendant’s motion to sever his trial from
that of his wife; there was extensive overlapping evidence against both defendant
and his wife on all charges except those
that were based on the wife’s exclusion
from federal health care programs due to
the revocation of her nursing license in
Virginia, the health care fraud changes
based on the nursing license revocation of
defendant’s wife did not involve significantly more serious charges with prejudicial
spillover effect than the evidence of defendant’s own culpability, particularly since
the evidence regarding the nursing license
and the Medicaid Provider Agreement was
part of the same overall fraudulent
scheme, in which government’s evidence
showed the direct involvement of both defendant and his wife, jury could readily
appreciate that the evidence about the license and the Agreement involved only the
wife because the evidence regarding her
was presented at trial, jury was instructed
to consider each defendant’s guilty separately, and verdict form was structured to
facilitate a decision on each defendant’s
guilt separately. Fed. R. Crim. P. 14(a).
22. Criminal Law O622.6(2)
There is a preference in the federal
system for joint trials of defendants who
are indicted together. Fed. R. Crim. P.
8(b).
23. Indictments and Charging Instruments O716
The Federal Rules of Criminal Procedure permits joinder of defendants in the
same indictment when the defendants are
alleged to have participated in the same
act or transaction, or in the same series of
acts or transactions, constituting an offense or offenses. Fed. R. Crim. P. 8(b).

764

926 FEDERAL REPORTER, 3d SERIES

24. Criminal Law O622.7(3)
District court may sever the defendants’ trials if the joinder of offenses or
defendants in an indictment or a consolidation for trial appears to prejudice a defendant or the government. Fed. R. Crim. P.
14(a).
25. Criminal Law O619, 620(1), 622.6(1)
District courts retain significant flexibility to determine how to remedy a potential risk of prejudice arising from the
joinder of offenses or defendants in an indictment or a consolidation for trial, including ordering lesser forms of relief
such as limiting jury instructions.
26. Criminal Law O622.7(3)
A district court should grant a severance motion only if there is a serious risk
that a joint trial would compromise a specific trial right of one of the defendants or
prevent the jury from making a reliable
judgment about guilt or innocence. Fed.
R. Crim. P. 14.
27. Criminal Law O1148
Court of Appeals reviews the district
court’s denial of a motion to sever for
abuse of discretion. Fed. R. Crim. P.
14(a).
28. Criminal Law O622.6(4)
In conspiracy trials, severance is generally not mandated despite a disparity in
evidence when there is substantial and independent evidence of each defendant’s
significant involvement in the conspiracy.
Fed. R. Crim. P. 14(a).
29. Criminal Law O1144.15
Jury is presumed to follow the instructions absent evidence to doubt that
they did.
30. Criminal Law O1166(10.10)
Defendants failed to show that their
substantial rights were prejudiced, in prosecution for, inter alia, health care fraud, by
government’s late production of exhibit; on
cross-examination, defense counsel raised

doubts about the probative value of the
exhibit for quantifying the health care
fraud, getting the witness who prepared
the exhibit to admit he did not know how
many of defendants’ previous beneficiaries
were no longer receiving Medicaid services
because they were deceased or disqualified, defense counsel did not request a
continuance or move for a mistrial, and
district court found no bad faith by the
government in the late production of the
exhibit. Fed. R. Crim. P. 16.
31. Criminal Law O627.5(1)
Federal Rules of Criminal Procedure
broadly mandate disclosure of material
documents within the government’s control
upon a defendant’s request. Fed. R. Crim.
P. 16.
32. Criminal Law O627.5(2), 627.8(6)
District court has broad authority to
regulate discovery, including by granting a
continuance where a party failed to comply
with the rule. Fed. R. Crim. P. 16(d).
33. Criminal Law O1036.1(6), 1130(5)
To extent defendants argued that report which was a government exhibit in
their prosecution for, inter alia, health care
fraud, was inadmissible under the Federal
Rules of Evidence, they failed to sufficiently develop that argument, and in any
event, the objections came too late.
34. Currency Regulation O13(3)
Evidence that defendants had the requisite criminal intent was sufficient to support their convictions for money laundering; fact that defendants, after receiving
reimbursements from Medicaid, transferred the money to the accounts associated with sham corporations was an attempt
to conceal the money’s provenance, since
those corporations had no obvious connection to the home health care industry, defendants, who controlled at least 122 bank
accounts, routinely engaged in convoluted

U.S. v. BIKUNDI
Cite as 926 F.3d 761 (D.C. Cir. 2019)

765

financial transaction and inter-company
transfers with no clear purpose, and defendants engaged in many transactions involving cashier’s checks. 18 U.S.C.A.
§ 1956(a)(1)(B)(i).

accounts, routinely engaged in convoluted
financial transaction and inter-company
transfers with no clear purpose and engaged in many transactions involving cashier’s checks. 18 U.S.C.A. §§ 1956, 1957.

35. Criminal Law O1139, 1144.13(3)
Court of Appeals reviews de novo the
denial of a motion for acquittal, viewing
the evidence in the light most favorable to
the government.

40. Health O989
Circumstantial evidence that defendant knew she had been excluded from
federal health care programs was sufficient to support her convictions for health
care fraud and making false statements in
a health care matter; jury could reasonably
find, based on a handwritten notation on a
document seized from defendant’s house,
that gave the complete URL web address
to a searchable government database listing everyone who had been excluded from
federal healthcare programs, a list that
included defendant, under her maiden
name, and on fact that a second notation
on the same document, written in the same
color as the URL address, was identified
by defendant’s brother as being in her
handwriting, that defendant wrote the
website address herself, and jury could
reasonably infer that defendant actually
visited the listed site and typed her own
maiden name into the database, and fact
that defendant made selective use of her
married name on health care-related forms
even before she was married suggested
that she actually knew that using her
maiden name might trigger a hit in the
exclusion
database.
18
U.S.C.A.
§ 1347(a); Social Security Act § 1128B, 42
U.S.C.A. § 1320a-7b(a)(3).

36. Currency Regulation O4
Prosecution for money laundering requires government to present evidence
from which a reasonable jury could find
that the transactions carried out by defendants were designed in whole or in part to
conceal or disguise the nature, the location,
the source, the ownership, or the control of
the proceeds of specified unlawful activity.
18 U.S.C.A. § 1956(a)(1)(B)(i).
37. Currency Regulation O4
The funneling of illegal funds through
various fictitious business accounts is a
hallmark of money laundering.
38. Criminal Law O561(1)
When faced with an innocent explanation sufficiently supported by the evidence
to create a reasonable doubt about the
defendant’s guilt, government’s burden is
to present evidence sufficient to dispel that
doubt.
39. Conspiracy O47(3.1)
Evidence was sufficient to support
convictions for money laundering conspiracy; jury found that as objects of the conspiracy, defendants planned to conceal the
source of the funds and to engage in transactions using the proceeds of their fraudulent conduct, since defendants, after receiving reimbursements from Medicaid,
transferred the money to the accounts associated with sham corporations, those corporations had no obvious connection to the
home health care industry, and defendants, who controlled at least 122 bank

41. Criminal Law O312
Indirect evidence of a defendant’s
mental state might include her conduct
before, during, or after the charged criminal acts, or the facts and circumstances
known to her when she acted.
42. Criminal Law O549
Jury requires no definitive identification or expert analysis to apply its own
common sense.

766

926 FEDERAL REPORTER, 3d SERIES

43. Criminal Law O1159.2(1)
Under the standard of review applicable in a challenge to the sufficiency of the
evidence to support a criminal conviction,
key question is what rational jurors could
conclude, not what they had to conclude.
44. Health O989
Evidence of defendant’s intent to defraud the District of Columbia Medicaid
program was sufficient to support his convictions for health care fraud and health
care fraud conspiracy; evidence that defendant knew about and encouraged the faking or destruction of records, knew about
and tolerated his company’s practice of
keeping patients who were ineligible for
Medicaid benefits on the rolls, and knew
that at least some of the company’s employees lacked required qualifications and
that he directed the erasure and replacement of expired dates on employee certifications, was ample for jury to find beyond
a reasonable doubt the he intended to defraud D.C. Medicaid.
18 U.S.C.A.
§§ 1347(a), 1349.
45. Criminal Law O742(1)
Credibility determinations are properly entrusted to the jury.
46. Criminal Law O1038.2
District court did not plainly err, in
prosecution for health care fraud, in failing
to instruct the jurors that they not only
had to unanimously find both defendants
guilty of health care fraud in general, but
also all had to agree on the same particular fraudulent claim for reimbursement.
47. Criminal Law O1038.1(4), 1038.3
Court of Appeals would review for
plain error defendants’ arguments, in prosecution for health care fraud, conspiracy to
commit health care fraud, money laundering, and conspiracy to commit money laundering, that jury should have been charged
that it had to agree unanimously on a
single health care fraud incident, and that
district court erred in giving an instruction

on aiding and abetting health care fraud;
defendants failed to raise those issues in
the district court.
48. Criminal Law O1030(1)
Plain error review requires showing
that (1) the District Court erred, (2) the
error was clear or obvious, (3) the error
affected defendants’ substantial rights, and
(4) the error seriously affected the fairness, integrity or public reputation of judicial proceedings.
49. Criminal Law O1038.1(4)
District court did not plainly err, in
prosecution for, inter alia, health care
fraud, in giving an aiding and abetting
instruction on the health care fraud count;
evidence that defendant knew about and
encouraged the faking or destruction of
records, knew about and tolerated his company’s practice of keeping patients who
were ineligible for Medicaid benefits on
the rolls, and knew that at least some of
the company’s employees lack required
qualifications and directed the erasure and
replacement of expired dates on employee
certifications supported the instruction.
50. Criminal Law O1172.1(4.2)
Any error, in prosecution for, inter
alia, health care fraud, in giving an aiding
and abetting instruction on the health care
fraud count, was harmless, where the evidence was also sufficient to convict defendant as a principal.
51. Sentencing and Punishment O2185,
2188(2)
Despite government’s failure, in prosecution for, inter alia, health care fraud, to
carry its burden of proving loss, evidence
was sufficient to support conclusion that
the payments to defendants from the District of Columbia Medicaid program constituted loss within meaning of the Mandatory Victims Restitution Act (MVRA),
supporting restitution order; since defen-

U.S. v. BIKUNDI
Cite as 926 F.3d 761 (D.C. Cir. 2019)

dants, due to their pervasive fraud, were
in a much better position than the government to ascertain the particular facts at
issue, specifically whether any services
they provided were truly legitimate, they
had burden of producing evidence of any
legitimate services they had provided that
were unaffected by their fraud, but they
failed to do so. 18 U.S.C.A. § 3664(e).
52. Criminal Law O1156.9
Court of Appeals reviews restitution
orders for abuse of discretion.
53. Sentencing and Punishment O2101
Under the Mandatory Victims Restitution Act (MVRA), restitution is essentially compensatory, not punitive: it simply
restores a victim, to the extent money can
do so, to the position the victim occupied
before sustaining injury.
54. Sentencing and Punishment O2143,
2167
Under the Mandatory Victims Restitution Act (MVRA), restitution is limited
to the actual, provable loss suffered by the
victim and caused by the offense conduct.
55. Sentencing and Punishment O2185
Under the Mandatory Victims Restitution Act (MVRA), burden of proving the
amount of the loss is borne by government
for purposes of determining restitution,
but burden of demonstrating such other
matters as the court deems appropriate is
upon the party designated by the court as
justice requires. 18 U.S.C.A. § 3664(e).
56. Sentencing and Punishment O2187
Under the Mandatory Victims Restitution Act (MVRA), amount of restitution
ordered by a district court must be supported by a preponderance of the evidence.
18 U.S.C.A. § 3664(e).
57. Sentencing and Punishment O2185
Although the ultimate burden of proving loss always remains with the government, the Mandatory Victims Restitution
Act (MVRA) authorizes district court to

767

place on defendant a burden of producing
evidence of any legitimate services where
defendant was in a much better position
than government to ascertain the particular facts at issue, specifically whether any
services were truly legitimate.
18
U.S.C.A. § 3664(e).
58. Sentencing and Punishment O2185
Under the Mandatory Victims Restitution Act (MVRA), if the defendant carries his burden of producing evidence of
any legitimate services, prosecution must
then prove the fraudulent nature of those
services in order to seek restitution in that
amount. 18 U.S.C.A. § 3664(e).
59. Sentencing and Punishment O2148,
2185
Under the Mandatory Victims Restitution Act (MVRA), if the defendant, in
disputing government’s request for restitution, does not produce evidence of legitimate services, the prosecution need not
show that each and every service was
fraudulent; rather, the prosecution may
rely on the existence of a pervasive fraud
to argue that all services were infected by
fraud in some way, and therefore that
payments for all services represent loss
under MVRA. 18 U.S.C.A. § 3664(e).
60. Forfeitures O124
District court did not plainly err, in
prosecution for, inter alia, health care
fraud, in ordering forfeitures for the health
care fraud offenses to be assessed concurrently; since defendants’ fraud was integral to each and every Medicaid payment
to their company, district court properly
determined that the total payments constituted or were derived from gross proceeds
traceable to each of their health care fraud
offenses.
18 U.S.C.A. §§ 982(a)(1),
982(a)(7).

768

926 FEDERAL REPORTER, 3d SERIES

61. Forfeitures O126(2, 4)
Court of Appeals, on review of forfeiture judgments, examines the district
court’s fact finding for clear error and its
legal interpretations de novo.
62. Forfeitures O48(9), 59
A defendant convicted of health care
fraud must forfeit property that constitutes or is derived, directly or indirectly,
from gross proceeds traceable to the commission of the health care fraud offense.
18 U.S.C.A. § 982(a)(7).
63. Forfeitures O61
Pursuant to statute mandating forfeiture of property brought in from health
care fraud, gross proceeds traceable to the
fraud, and thus subject to forfeiture, include the total amount of money brought
in through the fraudulent activity, with no
costs deducted or set-offs applied. 18
U.S.C.A. § 982(a)(7).
64. Forfeitures O61
Whereas other forfeiture statutes allow credit for lawful services, the statute
for health care fraud does not. 18
U.S.C.A. § 982(a)(7).
65. Forfeitures O124
District court did not plainly err, in
prosecution for, inter alia, money laundering, in ordering forfeitures for those offenses to be assessed concurrently, particularly in light of the lack of controlling
precedent and the state of the law elsewhere; funds transferred out of the intake
accounts of defendants’ health care company were involved in the money laundering
offenses because they facilitated the money laundering conspiracy. 18 U.S.C.A.
§ 982(a)(1).
66. Forfeitures O48(9), 59
A defendant convicted of money laundering must forfeit any property, real or
personal, involved in such offense, or any
property traceable to such property. 18
U.S.C.A. § 982(a)(1).

67. Forfeitures O124
Court of Appeals would review for
plain error argument, on appeal of convictions for money laundering, that district
court improperly calculated amount of forfeitures; that argument was not raised in
the district court.
68. Forfeitures O59
Money laundering forfeiture statute
applies not only to funds that are actually
laundered, but also to those more broadly
involved in money laundering.
18
U.S.C.A. § 982(a)(1).
69. Forfeitures O48(9)
Money laundering forfeiture statute
sweeps broadly because money laundering
largely depends upon the use of legitimate
monies to advance or facilitate the scheme.
18 U.S.C.A. § 982(a)(1).
70. Forfeitures O35
Ordering the two defendants in prosecution for, inter alia, health care fraud and
money laundering each to forfeit half of
the proceeds reasonably ensured that the
forfeiture judgments did not exceed an
amount that each defendant actually acquired; district court found that both defendants were integrally involved with the
fraudulent operations and that they jointly
obtained and were equally responsible for
the criminal proceeds.
18 U.S.C.A.
§§ 982(a)(1), 982(a)(7).
71. Fines O1.3
Forfeitures O63(2)
Forfeitures imposed in prosecution
for, inter alia, health care fraud and money
laundering, did not violate Constitution’s
Excessive Fines Clause; the essence of
defendants’ crime was grave, in that they
personally orchestrated a sprawling fraud
involving falsified licenses, timesheets, and
bills, and the scheme lasted for years and
involved numerous misdeeds, defendants
fell squarely within the class of criminals

U.S. v. BIKUNDI
Cite as 926 F.3d 761 (D.C. Cir. 2019)

targeted by the relevant forfeiture statutes, the statutes of conviction and the
Sentencing Guidelines authorized heavy
prison sentences and fines, defendants
caused significant harm by defrauding
Medicaid out of millions of dollars meant
for the needy, and since the total forfeiture
levied against defendants for health care
fraud corresponded one-to-one to the
amount they derived from their fraud and
the total forfeiture levied for money laundering likewise corresponded one-to-one to
funds involved in that crime, the penalties
were not grossly disproportional to the
crimes. U.S. Const. Amend. 8.
72. Fines O1.3
Excessive Fines Clause limits government’s power to extract payments, whether in cash or in kind, as punishment for
some offense. U.S. Const. Amend. 8.
73. Fines O1.3
Court of Appeals, in analyzing whether forfeiture judgments violate the Excessive Fines Clause, (1) determines whether
the government extracted payments for
the purpose of punishment, and (2) assesses whether the extraction was excessive;
the first step determines whether the Excessive Fines Clause applies, and the second determines if the Clause was violated.
U.S. Const. Amend. 8.
74. Fines O1.3
A punitive forfeiture violates the Excessive Fines Clause if it is grossly disproportional to the gravity of a defendant’s
offense. U.S. Const. Amend. 8.
75. Fines O1.3
Factors to be considered in determining whether a punitive forfeiture violates
the Excessive Fines Clause are: (1) the
essence of the crime; (2) whether defendant fit into the class of persons for whom
the statute was principally designed; (3)
the maximum sentence and fine that could
have been imposed; and (4) nature of the

769

harm caused by the defendant’s conduct.
U.S. Const. Amend. 8.
76. Forfeitures O124
Court of Appeals would review for
plain error argument, at sentencing for,
inter alia, health care fraud and money
laundering, that defendants lacked ability
to pay the forfeitures ordered, and therefore reversal was warranted only if the
district court plainly erred, meaning that
the error was obvious or clear under current law; defendants did not raise the argument in the district court.
77. Forfeitures O124
District court did not plainly violate
the Excessive Fines Clause by ordering
forfeitures without considering defendants’
ability to pay them; Excessive Fines
Clause did not make obvious whether a
forfeiture was excessive because a defendant was unable to pay, and neither the
Supreme Court nor the Court of Appeals
had spoken on the issue. U.S. Const.
Amend. 8.
78. Sentencing and Punishment O736
Defendants failed, at sentencing in
prosecution for, inter alia, health care
fraud, to produce, with any specificity, evidence as to the value of legitimate services
they allegedly rendered to the District of
Columbia Medicaid program, and therefore district court properly refused to use
the credit rule to reduce the loss calculation, supporting the Sentencing Guidelines
loss calculation and the accompanying enhancements that increased defendants’ respective offense levels by 28 points; the
amount that was fraudulently billed constituted the aggregate dollar amount of
fraudulent bills submitted to the government health care program. U.S.S.G.
§ 2B1.1(b)(1).

770

926 FEDERAL REPORTER, 3d SERIES

79. Criminal Law O1134.77, 1139,
1158.34
Upon appeal of sentencing enhancements, purely legal questions are reviewed
de novo, factual findings are to be affirmed
unless clearly erroneous, and Court of Appeals must give due deference to district
court’s application of the Sentencing
Guidelines to facts.
80. Criminal Law O1134.77
In context of review of a district
court’s application of the Sentencing
Guidelines to facts, due deference presumably falls somewhere between de novo review and review for clear error.
81. Sentencing and Punishment O736
Under the general rule of the applicable Sentencing Guidelines, amount of loss
at sentencing for a fraud offense is the
greater of actual loss or intended loss;
actual loss is the reasonably foreseeable
pecuniary harm that resulted from the offense, and intended loss is the pecuniary
harm that was intended to result from the
offense. U.S.S.G. § 2B1.1.
82. Sentencing and Punishment O978
Under the special rule provided by
the Sentencing Guidelines to assist in determining loss when sentencing defendants
convicted of a Federal health care offense
involving a Government health care program, the aggregate dollar amount of
fraudulent bills submitted to the Government health care program shall constitute
prima facie evidence of the amount of the
intended loss; this evidence is sufficient to
establish the amount of the intended loss,
if not rebutted. U.S.S.G. § 2B1.1, cmt.
n.3(F)(viii).
83. Criminal Law O1177.3(1)
Any error in district court’s determination, at sentencing in prosecution for,
inter alia, health care fraud, that the pervasive fraud at defendants’ company
meant that approximately $ 80 million was
fraudulent billed, was harmless because it

resulted in a lower loss calculation; although defendants’ company billed the
District of Columbia Medicaid program for
approximately $ 81 million, the district
court calculated the fraudulent bills as $ 80
million based on the amount D.C. Medicaid
paid to defendants’ company, which might
have been an error because only fraudulent bills, not actual payments, establish
intended loss under the special rule.
U.S.S.G. § 2B1.1, cmt. n.3(F)(viii).
84. Sentencing and Punishment O736,
963
Under the ‘‘credit rule’’ provided by
the Sentencing Guidelines, which directs
that loss shall be reduced by the fair market value of the services rendered by the
defendant, or other persons acting jointly
with the defendant, to the victim before
the offense was detected, fraudulent billings are sufficient to establish the intended
loss, unless rebutted. U.S.S.G. § 2B1.1,
cmt. n.3(E)(i).
85. Sentencing and Punishment O736
Under the Sentencing Guidelines,
both the credit rule and the special rule for
calculating loss in health care fraud cases
apply at sentencing for, inter alia, health
care fraud; special rule states that it applies notwithstanding the general rule, but
makes no exception for the credit rule, and
the drafters of the loss rules knew how to
indicate that no credits would be permitted. U.S.S.G. § 2B1.1, cmt. n.3(F).
86. Sentencing and Punishment O963
Overall burden of proving loss under
the Sentencing Guidelines always remains
with the government.
87. Sentencing and Punishment O758
Sentence enhancement for abusing positions of trust applies if a defendant
abused a position of public or private trust
in a manner that significantly facilitated

U.S. v. BIKUNDI
Cite as 926 F.3d 761 (D.C. Cir. 2019)

the commission or concealment of the offense. U.S.S.G. § 3B1.3.
88. Sentencing and Punishment O758
For purposes of the sentence enhancement for abusing positions of trust, a position of trust is characterized by professional or managerial discretion (i.e., substantial
discretionary judgment that is ordinarily
given considerable deference); persons
holding such positions ordinarily are subject to significantly less supervision than
employees whose responsibilities are primarily non-discretionary in nature, and the
position must have contributed in some
significant way to facilitating the commission or concealment of the offense.
U.S.S.G. § 3B1.3, cmt. n.1.
89. Sentencing and Punishment O758
Defendants, who operated a company
that provided home care services that were
funded through the District of Columbia
Medicaid program, which in turn was funded in part by the federal government, occupied and abused a position of trust, justifying imposition, at their sentencing for,
inter alia, health care fraud, of sentence
enhancement for abusing a position of
trust; the D.C. Department of Health Care
Finance (DHCF), which administered the
D.C. Medicaid program, depended on defendants to properly exercise substantial
discretion, DHCF entrusted agencies like
defendants’ company with ensuring that
actual beneficiaries received adequate services from qualified aides based on appropriate plans of care, relying on the leaders
of such agencies to maintain records and
submit bills that accurately reflect such
services, and those responsibilities called
for decisions and judgments that occurred
outside of DHCF’s supervision and received considerable deference from
DHCF. U.S.S.G. § 3B1.3, cmt. n.1.
90. Sentencing and Punishment O758
Plain text of the Sentencing Guidelines and their application notes do not

771

require a fiduciary relationship for imposition of a sentence enhancement for abuse
of trust; rather, they examine whether a
defendant’s position was characterized by
professional or managerial discretion,
which may be exercised by defendants who
are not physicians and run commercial entities. U.S.S.G. § 3B1.3, cmt. n.1.
91. Criminal Law O1042.3(1)
Court of Appeals, on review of defendants’ convictions for, inter alia, health
care fraud, which was based on their submission of fraudulent bills to the District of
Columbia Medicaid program, would review
for plain error defendants’ argument, on
appeal of district court’s imposition of sentence enhancement for abusing a position
of trust, that they did not abuse a position
of trust because they did not submit bills
directly to the D.C. Department of Health
Care Finance (DHCF), which administered the D.C. Medicaid program, but
rather used a medical billing company;
argument was made for the first time on
appeal. U.S.S.G. § 3B1.3.
92. Sentencing and Punishment O758
District court did not plainly err, at
sentencing in prosecution for, inter alia,
health care fraud, in imposing sentence
enhancement for abusing a position of
trust, increasing defendants’ offense levels
by two points, despite fact that defendants,
who operated a company that provided
home care services that were funded
through the District of Columbia Medicaid
program, which in turn was funded in part
by the federal government, used a billing
service to submit their bills; the billing
service used by defendants submitted bills
based on the timesheets and documents
provided by defendants’ company, which
he assumed were correct, and he was not
responsible for investigating whether the
services provided by defendants were legitimate, nor for certifying that the infor-

772

926 FEDERAL REPORTER, 3d SERIES

mation contained in the bills was truthful.
U.S.S.G. § 3B1.3.
93. Criminal Law O1042.3(1)
Court of Appeals, on appeal of defendants’ convictions for, inter alia, health
care fraud, which was based on their submission of fraudulent bills to the District of
Columbia Medicaid program, would review
for plain error defendants’ argument that
district court erred by imposing a sentence
enhancement for abusing a position of
trust because the Sentencing Guidelines
prohibited that enhancement when an
abuse of trust was included in the base
offense level or specific offense characteristic. U.S.S.G. § 3B1.3.
94. Criminal Law O1042.3(1)
Court of Appeals, on review of defendants’ convictions for, inter alia, health
care fraud, which was based on their submission of fraudulent bills to the District of
Columbia Medicaid program, would review
for plain error defendants’ argument, on
appeal of district court’s imposition of sentence enhancement for abusing a position
of trust, that the Sentencing Guidelines
prohibited that enhancement when an
abuse of trust is included in the base offense level or specific offense characteristic; the holding on which defendants relied,
which appeared in an out-of-circuit decision, had been characterized as dicta, and
other circuits had applied the enhancement
to defendants convicted of Medicare and
Medicaid fraud. U.S.S.G. § 3B1.3.
95. Sentencing and Punishment O752
Defendant, convicted of, inter alia,
health care fraud, as integrally involved as
a boss at his company, supporting imposition, at sentencing, of a managerial role
enhancement that increased his offense
level by three points; defendant managed
and supervised the health care fraud and
money laundering conspiracies through his
control of his company’s employees.
U.S.S.G. § 3B1.1(b).

96. Sentencing and Punishment O752
Managerial-role sentencing enhancement applies if the defendant was a manager or supervisor (but not an organizer or
leader) and the criminal activity involved
five or more participants or was otherwise
extensive. U.S.S.G. § 3B1.1(b).
97. Sentencing and Punishment O752
In determining whether a managerial
role sentence enhancement is appropriate,
no single factor is dispositive, but all defendants receiving the enhancement must
exercise some control over others.
U.S.S.G. § 3B1.1(b).
98. Sentencing and Punishment O689
Two-level enhancement for violation of
an administrative order was properly applied at sentencing in prosecution for, inter
alia, health care fraud, based on defendant’s knowing violation of order of the
Department of Health and Human Services (HHS) which excluded her from participating in federal health care programs;
evidence supported that defendant knew
she had been placed on the exclusion list.
U.S.S.G. § 2B1.1(b)(9)(C).
Appeals from the United States District
Court for the District of Columbia (No.
1:14-cr-00030-2), (No. 1:14-cr-00030-1)
Andrew E. Goldsmith, Washington, DC,
appointed by the court, argued the cause
for appellant Florence Bikundi. Steven R.
Kiersh, Washington, DC, appointed by the
court, argued the cause for appellant Michael D. Bikundi Sr. With them on the
joint briefs were Bradley E. Oppenheimer
and Albert Pak, Washington, DC, all appointed by the court.
Katherine M. Kelly, Assistant U.S. Attorney, argued the cause for appellee.
With her on the brief were Jessie K. Liu,
U.S. Attorney, and Elizabeth Trosman, Suzanne Grealy Curt, and Christopher B.

773

U.S. v. BIKUNDI
Cite as 926 F.3d 761 (D.C. Cir. 2019)

Brown, Assistant U.S. Attorneys. Nicholas
P. Coleman and Elizabeth H. Danello, Assistant U.S. Attorneys, entered appearances.
Before: Rogers, Tatel, and Griffith,
Circuit Judges.
Concurring Opinion by Judge Rogers.
Per Curiam:
TABLE

OF

CONTENTS

INTRODUCTION
I. REGULATORY AND FACTUAL BACKGROUND
II.
A.

SPEEDY TRIAL RIGHTS
Speedy Trial Act

B. Sixth Amendment
III. SEVERANCE
IV.

I.

ADMISSION OF EXHIBIT 439

V. SUFFICIENCY OF THE EVIDENCE
A.

Money Laundering and Conspiracy

B. Exclusion-Based
Fraud

Health

Care

C. Health Care Fraud and Conspiracy
VI. JURY INSTRUCTIONS
A.

lent business, appellants challenge the denial of Florence Bikundi’s motion to dismiss the indictment for violation of her
statutory and constitutional rights to a
speedy trial; the denial of Michael Bikundi’s motion to sever his trial pursuant to
Rule 14(a) of the Federal Rules of Criminal Procedure; and the mid-trial admission
of a government report pursuant to Rule
16 of the Federal Rules of Criminal Procedure. They also challenge their enhanced
sentences, the forfeiture and restitution
orders, and the denial of their motions for
judgment of acquittal notwithstanding the
verdicts pursuant to Rule 29(c) of the Federal Rules of Criminal Procedure. For the
following reasons, we affirm.

Unanimity

B. Aiding-and-Abetting Health Care
Fraud
VII. SENTENCING
A.

Restitution

B.

Forfeiture

C.
1.
2.
3.
4.

Sentencing Enhancements
Loss Amount
Abuse of Trust
Managerial Role
Violation of Administrative Order

Florence Bikundi and Michael Bikundi
appeal their convictions by a jury of health
care fraud, conspiracy to commit health
care fraud, money laundering, and conspiracy to commit money laundering. Suggesting that the government’s case was premised on the misconduct of a handful of
employees rather than an entire fraudu-

Florence and Michael Bikundi (hereinafter separately ‘‘Florence’’ and ‘‘Michael’’)
operated Global Healthcare, Inc. (‘‘Global’’)
to provide home care services that were
funded through the D.C. Medicaid program, which, in turn, is funded in part by
the federal government, to provide free or
low-cost health services to low-income individuals. See 42 U.S.C. § 1396-1; D.C. Code
§ 4-204.05; 42 C.F.R. §§ 435.900–435.965.
A.
The D.C. Department of Health Care
Finance (‘‘DHCF’’) administers the D.C.
Medicaid program. D.C. Code § 7-7701.07.
Home care service entities assist D.C.
Medicaid beneficiaries in performing daily
living activities, such as getting out of bed,
bathing, and eating. D.C. Mun. Regs. tit.
22 § 3915. Because these services are typically not provided by registered nurses or
other medical professionals, home care
service entities are required to conduct
background checks prior to hiring their
aides. DHCF also periodically audits home
care service entities for conformance with
physician-approved home care plans, and

774

926 FEDERAL REPORTER, 3d SERIES

DHCF will withhold future payments upon
finding non-compliance with regulatory requirements.
To be eligible to receive D.C. Medicaid
payments, home care service entities must
be licensed by the Health Regulation and
Licensing Administration in the D.C. Department of Health. D.C. Mun. Regs. tit.
22 § 3900. As part of this process, a home
care service entity must submit a provider
application and enter into a provider
agreement. When reviewing the application, the Health and Regulation Licensing
Administration determines whether any individual holding a five percent or greater
ownership in the entity has been excluded
from participation in any federal health
care program by checking an ‘‘exclusion
list’’ published by the U.S. Department of
Health and Human Services (‘‘HHS’’). The
Administration also conducts annual licensure surveys to ensure that licensed home
care entities operate in accordance with
D.C. regulations.
To qualify for personal care services
covered by D.C. Medicaid, a beneficiary
must obtain a prescription from a licensed
physician. The beneficiary presents the
prescription to the home care services entity, which assigns a personal care aide to
the beneficiary. A registered nurse conducts an assessment of the beneficiary’s
needs for purposes of preparing an individualized plan of care. A licensed physician
must approve the plan of care within thirty
days and typically is to re-certify the plan
1.

18 U.S.C. § 1347 (health care fraud); id.
§ 1349 (conspiracy to commit health care
fraud); id. § 1956(a)(1)(B)(i) (money laundering); id. § 1956(h) (money laundering conspiracy); id. § 1957 (engaging in monetary
transactions in property derived from specified unlawful activity); id. § 2 (aiding and
abetting).

2.

18 U.S.C. § 1035 (false statements in health
care matters); 42 U.S.C. § 1320a-7b (Medicaid fraud).

every six months. A personal care aide
administers the services in the plan of
care. Generally, a registered nurse must
visit the beneficiary at home at least once
every 30 days to determine if the beneficiary is receiving adequate services.
Personal care aides providing services to
D.C. Medicaid beneficiaries are to keep
track of the services provided on timesheets. Each timesheet must be signed by
the personal care aide and the beneficiary
to certify that the stated services were
provided. The home care services entity
uses these timesheets in support of claims
submitted to DHCF for payment.
B.
Florence was indicted for health care
fraud and money laundering in February
2014. A superseding indictment filed in
December 2014, added eight co-defendants, including Michael Bikundi. The 27count indictment charged Florence and
Michael with health care fraud, conspiracy
to commit health care fraud, seven counts
of money laundering, money laundering
conspiracy, and engaging in monetary
transactions in property derived from unlawful activity.1 It charged Florence with
health care fraud based on her exclusion
from federal health care programs and
making false statements involving federal
health care programs.2 Five other co-defendants entered into plea agreements that
required them to cooperate with the government.3
3.

Two of the co-defendants had not yet been
arrested and remained fugitives at the time of
trial. Two former Global employees who were
not named as co-defendants in the indictment
separately entered into plea agreements that
required cooperation with the government.
Two former Global employees testified under
government assurances that they would not
be prosecuted.

U.S. v. BIKUNDI
Cite as 926 F.3d 761 (D.C. Cir. 2019)

[1] Viewing the evidence in the light
most favorable to the government, as we
must, see, e.g., Jackson v. Virginia, 443
U.S. 307, 319, 99 S.Ct. 2781, 61 L.Ed.2d
560 (1979), reveals overwhelming evidence
of pervasive fraud by comprehensive alteration of employee and patient records in
connection with services claimed to have
been provided by Global. The government
presented documentary and testimonial evidence, including the testimony of eight
former employees of Global.
Global had a shaky beginning in view of
Florence’s formal exclusion from participation in federal health care funding programs as a result of the revocation of her
nursing license by the Commonwealth of
Virginia in 1999. 42 U.S.C. § 1320a-7. The
parties dispute whether Florence received
the letter notifying her of the exclusion
decision, but Florence certainly received
and responded to a letter informing her
that exclusion proceedings had been initiated. Her license had been issued in her
maiden name, ‘‘Florence Igwacho,’’ and
that name appears on the ‘‘exclusion list’’
published both online and in the Federal
Register by HHS. Yet in June 2009, Florence submitted a D.C. Medicaid provider
application on behalf of Global Healthcare,
Inc. to DHCF that listed ‘‘Florence Bikundi’’ as Global’s chief executive officer and
listed ‘‘Florence Igwacho Bikundi’’ as a
contact person. Although Florence and Michael were not married until September
2009, Florence began using the name ‘‘Bikundi’’ when they became engaged in 2005.
According to defense testimony by her father, it is customary in Cameroon, Florence and Michael’s home country, for a
woman to begin using a man’s last name
when he provides a dowry, which Michael
did before they became engaged. DHCF
approved Global’s application on July 30,
2009.
At Global, Florence and Michael hired
and fired employees, approved employee

775

paychecks, and reviewed the timesheets
that were used in support of D.C. Medicaid
claims submitted to DHCF. During multiple licensure surveys, surveyors from the
Health Regulation and Licensing Administration found deficiencies in Global’s record-keeping and personnel files. At trial,
former Global employees testified about
rampant falsification of records that they
had made at the direction of Florence and
Michael. Employees testified that to show
Global had complied with licensure surveys, they falsified employee files and patient records. For employee files, they altered dates on employees’ certifications,
included fake credentials for employees
who were undocumented immigrants, and
created false background checks on them.
For patient records, employees created
falsified nurse notes, altered dates on physician prescriptions, and altered physician
signatures on plans of care.
Global employees also testified about falsification of timesheets submitted to
DHCF and unlawful payments to D.C.
Medicaid beneficiaries. The employees testified about multiple situations where Florence and Michael were aware that aides
were not actually providing services during
time periods claimed on timesheets. Although Florence and Michael did on occasion withhold employee paychecks and told
personal care aides to cease billing for
services they did not provide, neither Florence nor Michael attempted, according to
these employees, to return the money to
the D.C. Medicaid Program. Employees
also testified about making payments to
D.C. Medicaid beneficiaries to sign false
timesheets in order to show Global had
provided them with home care services.
From November 2009 to February 2014,
D.C. Medicaid paid Global a total of $ 80.6
million. An investigation by the Federal
Bureau of Investigation showed that millions of dollars’ worth of the D.C. Medicaid

776

926 FEDERAL REPORTER, 3d SERIES

payments were deposited directly into
three Global bank accounts, for which
Florence Bikundi and Michael Bikundi
were the sole signatories. Within two days,
and usually on the same day, Florence and
Michael transferred these funds to separate Global bank accounts and a bank account for Flo-Diamond, Inc., a company
incorporated by Florence that was registered to provide home care services to
Maryland Medicaid recipients. From these
secondary accounts, Florence and Michael
transferred the D.C. Medicaid funds to
many of the over one hundred other financial accounts that they controlled. Among
these accounts, Florence and Michael
transferred funds to three accounts in the
name of CFC Home & Trade Investment,
LLC (‘‘CFC’’) and Tri-Continental Trade
& Development (‘‘Tri-Continental’’); Florence and Michael were signatories on
these banks accounts as well. CFC and
Tri-Continental both generated no income
and had no business relationship with
Global. Ultimately, checks were written on
these bank accounts to Florence and Michael personally.
The jury found Florence and Michael
guilty as charged, except on Counts 23, 24,
and 25 for engaging in monetary transactions in property derived from unlawful
activity. The district court sentenced Florence to 120 months’ imprisonment and 36
months’ supervised release, and Michael to
84 months’ imprisonment and 36 months’
supervised release. The district court required them to pay restitution in the
amounts of $ 80,620,929.20, jointly and
severally. The district court also required
each of them to forfeit $ 39,989,956.02 (for
the money laundering offenses) and $ 39,701,764.42 (for the health care fraud offenses), assessed concurrently. The district
court denied their motions for acquittal
notwithstanding verdicts, and they appeal.
We begin by examining Florence’s
speedy trial claims, then address Michael’s

severance claim, and thereafter turn to
their evidentiary objections and jury instructions challenges. Finally, we address
their challenges to their sentences.
II.
Speedy Trial. Florence raises both statutory and constitutional speedy trial
claims. The statutory claim focuses on the
length of the delay and district court’s
findings about that delay, the constitutional claim on the length of the delay.
A.
[2] Speedy Trial Act. The Speedy Trial
Act provides that ‘‘the trial of a defendant
TTT shall commence within seventy days
from the filing date (and making public) of
the information or indictment, or from the
date the defendant has appeared before a
judicial officer of the court in which such
charge is pending, whichever date last occurs.’’ 18 U.S.C. § 3161(c)(1). Certain periods of delay are to be excluded from the
seventy-day maximum, including any period of delay resulting from an ‘‘ends-ofjustice’’ continuance. Id. § 3161(h)(7).
[3–6] For an ‘‘ends-of-justice’’ continuance, the district court must ‘‘set forth, in
the record of the case, either orally or in
writing, its reasons for finding that the
ends of justice served by the granting of
such continuance outweigh the best interests of the public and the defendant in a
speedy trial.’’ Id. § 3161(h)(7)(A). Although
the ‘‘substantive balancing underlying the
decision’’ to grant an ends-of-justice continuance is ‘‘entrusted to the district
court’s sound discretion,’’ United States v.
Rice, 746 F.3d 1074, 1078 (D.C. Cir. 2014),
the findings requirement imposes ‘‘procedural strictness,’’ Zedner v. United States,
547 U.S. 489, 509, 126 S.Ct. 1976, 164
L.Ed.2d 749 (2006). At the minimum, the
district court’s findings ‘‘must indicate that

U.S. v. BIKUNDI
Cite as 926 F.3d 761 (D.C. Cir. 2019)

it ‘seriously weighed the benefits of granting the continuance against the strong
public and private interests served by
speedy trials.’ ’’ Rice, 746 F.3d at 1078
(quoting United States v. Bryant, 523 F.3d
349, 361 (D.C. Cir. 2008)). Although the
findings requirement does not call for
‘‘magic words’’ in weighing the competing
interests, id. at 1079, mere reference to
‘‘some rough justice basis’’ is insufficient,
United States v. Sanders, 485 F.3d 654,
659 (D.C. Cir. 2007). Similarly, mere ‘‘passing reference to the case’s complexity’’ is
insufficient, and a district court’s failure to
make the requisite finding means the delay
is to be counted against the defendant’s
speedy-trial period. Zedner, 547 U.S. at
507, 126 S.Ct. 1976.
[7] The court’s review of Speedy Trial
Act claims is de novo on questions of law
and for clear error for factual findings.
United States v. Lopesierra-Gutierrez, 708
F.3d 193, 202 (D.C. Cir. 2013).
[8] Florence’s Speedy Trial Act clock
began running on February 21, 2014, when
she was arraigned on the initial indictment. The district court granted five endsof-justice continuances in the period between her arraignment and the filing of
the superseding indictment eighteen
months later. Florence challenges the sufficiency of the district court’s findings for
the last three continuances, on June 16,
July 22, and September 5. She maintains
that the district court merely relied on the
fact that the case was ‘‘complex’’ without
properly acknowledging or weighing the
countervailing interests of the defendant
and the public. Our review is limited to
those time periods. See Rice, 746 F.3d at
1077–78.
Florence did not object to any of the
continuances until July 1, 2015, when she
moved to dismiss the superseding indictment. The district court denied the motion
while acknowledging that for ends-of-justice continuances, it had to find on the

777

record that ‘‘the interest[s] in that continuance outweigh the best interests of the
public and the defendant in a speedy trial.’’
Tr. 106 (July 31, 2015 AM). The district
court found that the best interests of justice would be served by excluding the time
periods ‘‘[g]iven the complexity of this case
and the reasons stated in open court.’’ Id.
at 109.
To appreciate the thoroughness with
which the district court addressed the
ends-of-justice continuances, it is worth
noting that in granting the first such continuance, on March 7, 2014, the district
court concluded the interests of justice
outweighed ‘‘the interests of the parties
and the public in a speedier trial’’ because
the purpose of the continuance was to
‘‘permit defense counsel and the government time to both produce discovery and
review discovery.’’ Tr. 5 (Mar. 7, 2014
AM). The court thereby accounted for the
nature of the alleged charges, including
the complexity of discovery for a conspiracy lasting over five years in which Florence and Michael were alleged to have
altered and created false documents in
support of their claims for Medicaid reimbursement and in moving reimbursed
funds in and out of multiple accounts. On
April 24, and again on June 16, the district court concluded that the need for
more time remained, referencing ‘‘the
complexity of the case and the amount of
discovery.’’ Tr. 52 (June 16, 2014 AM).
The district court granted a fourth continuance, with Florence’s consent, on July 22,
as counsel advised that they planned to
engage in further meetings and discussions and assured the district court that
they had been diligent in reviewing discovery and discussing the case. In granting the final ends-of-justice continuance,
the district court noted that Florence was
still ‘‘sitting in jail’’ and pressed the government to move quickly in procuring a
superseding indictment, while also recog-

778

926 FEDERAL REPORTER, 3d SERIES

nizing that the government still had to
produce more documents to the defense.
Succinctly, the district court stated, its
‘‘finding that this is a complex case continues to hold,’’ Tr. 15 (Sept. 5, 2014 AM),
and ruled that the Speedy Trial Act was
tolled due to the ‘‘complex’’ nature of the
case, id. at 22.
The district court’s findings on the record in support of the ends-of-justice continuances are similar to those in Rice and
Lopesierra-Gutierrez that were held to
satisfy the statutory findings requirement.
In Rice, the district court justified granting the delay based on the ‘‘large number
of defendants, the many hours of wiretaps
to be transcribed and translated, and the
absence of certain defendants still awaiting
extradition.’’ 746 F.3d at 1079. The district
court took the defendants’ interests into
consideration by noting that the defense
would not be in a position to adequately
provide representation until the wiretaps
were complete. In Lopesierra-Gutierrez,
the district court justified the grant of the
ends-of-justice continuance on the basis of
‘‘the complexity of the case, the nature of
the prosecution, and that it would be unreasonable to expect adequate preparation
for pretrial proceedings or for the trial
itself within the time limits established
under the Act.’’ 708 F.3d at 205. In both
cases, the district court’s conclusion that a
continuance would give the defendant
more time to review discovery and to prepare for trial demonstrated that the district court seriously weighed the defendant’s interest. See Rice, 746 F.3d at 1079;
Lopesierra-Gutierrez, 708 F.3d at 205.
Similarly, in granting the first continuance, the district court found that due to
the large volume of discovery underlying
the charges in the initial indictment, a
continuance would ‘‘permit defense counsel
and the government time to both produce
discovery and review discovery and evaluate the evidence against [Florence].’’ Tr. 5

(Mar. 7, 2014 AM). This finding shows the
district court weighed Florence’s interest
by considering that a continuance would
give her more time to prepare her defense.
The allegations in the initial indictment
spanned a period of six years, involving
numerous submissions of Medicaid claims.
Florence concedes that the district court’s
findings to support this continuance satisfy
the statutory requirements. Appellants’
Br. 37 n.18.
[9] Although ‘‘best practice’’ warrants
contemporaneous, specific explanation by
the district court, see Zedner, 547 U.S. at
507 n.7, 126 S.Ct. 1976, and the district
court often did so, in the circumstances
here, the court does not understand the
statute to require the district court to repeat all of the details of its findings on the
record each time it grants an ends-of-justice continuance, particularly where the
charged offenses indicate why discovery
would be prolonged. Not only were the
circumstances regarding discovery essentially unchanged when the district court
granted ends-of-justice continuances, the
district court expressly stated on June 16,
2014, that the parties were making arrangements for ‘‘the most expeditious way
to get discovery into the hands of the
defense counsel.’’ Tr. 52 (June 16, 2014
AM). In granting the last challenged endsof-justice continuance, the district court
stated that its prior reason for granting an
ends-of-justice continuance continued to
apply because discovery was ongoing.
Whatever ambiguity may reside in the
Speedy Trial Act about when the district
court must place its findings on the record,
see Zedner, 547 U.S. at 506–07, 126 S.Ct.
1976, we hold that the district court’s consideration of the lengthy time needed for
discovery and its impact on defense counsel’s ability to prepare for trial demonstrates that the district court adequately

779

U.S. v. BIKUNDI
Cite as 926 F.3d 761 (D.C. Cir. 2019)

weighed Florence’s interests when considering the complexity of the case.
[10] The district court also adequately
addressed the public interest. Florence
concedes that the district court’s statements in support of granting the first two
continuances, which referenced the interests of ‘‘the public,’’ satisfied the statutory
requirements. Tr. 5 (Mar. 7, 2014 AM); Tr.
9 (Apr. 24, 2014 AM); Appellants’ Br. 37
n.18. But she maintains that the district
court’s findings in support of the last three
continuances were insufficient. Yet the district court’s concern that adequate time
was needed for the defense to review the
documents produced in discovery and to
prepare the defense was directly related to
the public interest that trial not proceed
prematurely. Florence consented to the
next-to-last continuance, and in granting
the final continuance, the district court
referenced the fact that the underlying
circumstances regarding discovery had not
changed. When asked by this court during
oral argument what rule was being sought,
Florence’s counsel responded that specific
findings to support an ends-of-justice continuance would require the district court to
state on the record something to the effect
that ‘‘I’ve considered the interests of the
public in a speedy trial in this case, and
given the facts and circumstances of this
case, the interests of the public outweigh
the interests in a speedy trial.’’ Oral Arg.
3:34–3:50. The words are slightly different,
but the district court’s on-the-record findings are to the same effect: considering the
public interest in a speedy trial in light of
affording defense counsel the opportunity
to prepare a defense to a complex fraud
involving $ 80 million in health care payments. Florence neither suggests her trial
counsel should have proceeded to trial before discovery was completed nor challenges the district court’s statement that
the parties were arranging for the ‘‘most
expeditious way to get discovery into the
hands of defense counsel.’’ Tr. 52 (June 16,

2014 AM). The combination of the district
court’s references to the public interest
and the efficient use of resources suffice to
show that the district court seriously
weighed the public’s interests.
Therefore, Florence fails to show that
the pretrial proceedings were delayed so
as to violate her statutory speedy trial
rights.
B.
[11–14] Sixth Amendment. The Sixth
Amendment to the United States Constitution guarantees that ‘‘[i]n all criminal prosecutions, the accused shall enjoy the right
to a speedy TTT trial.’’ U.S. Const. amend.
VI. In Barker v. Wingo, 407 U.S. 514, 530,
92 S.Ct. 2182, 33 L.Ed.2d 101 (1972), the
Supreme Court articulated a four-factor
balancing test for determining whether a
defendant has been deprived of this
speedy trial right: the ‘‘[l]ength of delay,
the reason for the delay, the defendant’s
assertion of his right, and prejudice to the
defendant.’’ No single factor is necessary
or sufficient to find a deprivation of the
right to a speedy trial because the factors
are related and must be considered together. Id. at 533, 92 S.Ct. 2182. To trigger the
speedy trial analysis, the length of delay
between accusation and trial must ‘‘cross[ ]
the threshold dividing ordinary from ‘presumptively prejudicial’ delay.’’ Doggett v.
United States, 505 U.S. 647, 651–52, 112
S.Ct. 2686, 120 L.Ed.2d 520 (1992). Generally, a delay of one year is presumptively
prejudicial. Id. at 652 n.1, 112 S.Ct. 2686.
[15] The court reviews the district
court’s application of the Barker factors de
novo. See United States v. Tchibassa, 452
F.3d 918, 924 (D.C. Cir. 2006).
[16, 17] Although the delay of approximately eighteen months in Florence’s case
triggered the inquiry, the Barker factors
on balance favor the government. As to the

780

926 FEDERAL REPORTER, 3d SERIES

first and second factors, ‘‘the delay that
can be tolerated for an ordinary street
crime is considerably less than a serious,
complex conspiracy charge.’’ Barker, 407
U.S. at 531, 92 S.Ct. 2182. In LopesierraGutierrez, this court held that a three-anda-half year delay was justifiable for a complex conspiracy charge with complicated
evidence and multiple defendants. 708 F.3d
at 203. Given the complex conspiracy
charges at issue here, with voluminous discovery and multiple defendants, a delay of
eighteen months was justifiable. Florence
also filed multiple pretrial motions as well
as an interlocutory appeal and she consented to continuances granted on July 22,
2014, and October 7, 2014. Although not all
of her motions delayed the trial, they still
contributed to the length of proceedings.
Florence does not maintain that the government acted in bad faith in seeking
ends-of-justice continuances. See id.
[18] As to the third factor, the fact
that Florence did not assert her speedy
trial rights until she filed a motion to
dismiss sixteen months after her arraignment also weighs in the government’s favor. The circumstances here are like those
in United States v. Taplet, 776 F.3d 875,
881 (D.C. Cir. 2015), where the defendant
‘‘either joined in or requested many of the
continuances, and he waited fourteen
months after his arraignment before filing
a motion to dismiss under the Speedy Trial
Act.’’ The court held no Sixth Amendment
violation occurred. Similarly, Florence consented to exclusion of time under the
Speedy Trial Act and did not assert her
speedy trial rights early or often.
[19, 20] Finally, the fourth factor favors the government. The ‘‘presumptive
prejudice’’ arising from delay of trial for
over one year ‘‘cannot alone carry a Sixth
Amendment claim without regard to the
other Barker criteria.’’ Doggett, 505 U.S. at
655–56, 112 S.Ct. 2686; see also Taplet, 776
F.3d at 881. Florence offers no explanation

of how the delay impaired her defense, and
thus fails to show that her Sixth Amendment right to a speedy trial was violated.
III.
[21–26] Severance. There is a preference in the federal system for joint trials.
Zafiro v. United States, 506 U.S. 534, 537,
113 S.Ct. 933, 122 L.Ed.2d 317 (1993). Rule
8(b) of the Federal Rules of Criminal Procedure permits joinder of defendants in
the same indictment when the defendants
‘‘are alleged to have participated in the
same act or transaction, or in the same
series of acts or transactions, constituting
an offense or offenses.’’ Rule 14(a), however, permits a district court to sever the
defendants’ trials if the joinder of ‘‘offenses or defendants in an indictment TTT
or a consolidation for trial appears to prejudice a defendant or the government.’’ District courts retain significant flexibility to
determine how to remedy a potential risk
of prejudice, including ordering lesser
forms of relief such as limiting jury instructions. United States v. Moore, 651
F.3d 30, 95 (D.C. Cir. 2011) (per curiam).
Still, the Supreme Court has cautioned
that ‘‘a district court should grant a severance motion under Rule 14 only if there is
a serious risk that a joint trial would compromise a specific trial right of one of the
defendants, or prevent the jury from making a reliable judgment about guilt or innocence.’’ Zafiro, 506 U.S. at 539, 113 S.Ct.
933.
[27] Michael contends that the district
court erred in denying his Rule 14(a) motion because of the unfair prejudice due to
spillover effect as a result of the disparity
of evidence against him as compared to
that against Florence and the fact that
they were married. In particular, he points
to the evidence that Florence’s nursing
license was revoked and the repeated references at trial to Florence and Michael as

U.S. v. BIKUNDI
Cite as 926 F.3d 761 (D.C. Cir. 2019)

a single unit, ‘‘they.’’ The court reviews the
district court’s denial of a Rule 14(a) motion for abuse of discretion, id. at 542, 113
S.Ct. 933, and we find none.
[28] In conspiracy trials, severance is
generally not mandated despite a disparity
in evidence when there is ‘‘substantial and
independent evidence of each [defendant’s]
significant involvement in the conspiracy.’’
Moore, 651 F.3d at 96 (quoting United
States v. Tarantino, 846 F.2d 1384, 1399
(D.C. Cir. 1988) ). That is the situation
here given the extensive overlapping evidence against Florence and Michael on all
charges besides those based on Florence’s
exclusion. So, although Florence alone was
charged with making false and fraudulent
representations on the Medicaid Provider
Agreement, and no evidence connected Michael to that charge, the government presented abundant independent evidence of
Michael’s culpable conduct in operating the
Global conspiracies to commit health care
fraud and money laundering. Employees
testified that he instructed them to alter
patient records and even to create records
for employees that included false information.
Michael fails to demonstrate the health
care fraud charges based on Florence’s
nursing license revocation involved significantly more serious charges with prejudicial spillover effect than other evidence of
his own culpability. The evidence regarding Florence’s license and the Medicaid
Provider Agreement was part of the same
overall fraudulent scheme, in which the
government’s evidence showed Florence’s
and Michael’s direct involvement. As the
evidence regarding Florence was presented at trial, the jury could readily appreciate that the evidence about the license and
Medicaid Provider Agreement involved
only Florence.
[29] Additionally, it is not exactly uncommon for a husband and wife to be tried
together when they are charged with com-

781

mitting the same or similar crimes. See,
e.g., United States v. Johnson, 569 F.2d
269, 271 (5th Cir. 1978); United States v.
Cianciulli, 476 F. Supp. 845, 848 (E.D. Pa.
1979); see also United States v. CarbajalNieto, 390 F. App’x 295, 296 (4th Cir.
2010). Here, the district court instructed
the jury to consider each defendant’s guilt
separately:
[E]ach defendant is entitled to have the
issue of his or her guilt as to each of the
crimes for which he or she is on trial
determined from his or her own conduct
and from the evidence that applies to
him or her as if he or she were being
tried alone. You should, therefore, consider separately each offense, and the
evidence which applies to it, and you
should return separate verdicts as to
each count of the Indictment, as well as
to each defendant.
Tr. 27 (Nov. 9, 2015 AM). Further, the
jury was instructed that:
The fact that you may find one defendant guilty or not guilty on any one
count of the Indictment should not influence your verdict with respect to any
other count of the Indictment for that
defendant. Nor should it influence your
verdict with respect to any other defendant as to that count or any other count
in the Indictment. Thus, you may find
any one or more of the defendants guilty
or not guilty on any one or more counts
of the Indictment, and you may return
different verdicts as to different defendants [and] as to different counts.
Id. at 27–28. The jury is presumed to
follow the instructions absent evidence to
doubt that they did, Weeks v. Angelone,
528 U.S. 225, 234, 120 S.Ct. 727, 145
L.Ed.2d 727 (2000) (citing Richardson v.
Marsh, 481 U.S. 200, 211, 107 S.Ct. 1702,
95 L.Ed.2d 176 (1987) ), and Michael points
to no such evidence here. The verdict form
was structured to facilitate a decision on

782

926 FEDERAL REPORTER, 3d SERIES

each defendant’s guilt separately, listing
all of the charges against Florence and
Michael separately within each count.
In view of the abundant evidence of
Michael’s involvement in the Global conspiracies, the references at trial to Florence and Michael as ‘‘they,’’ even when
considered in combination with the license
and Medicaid Provider Agreement evidence against Florence, do not demonstrate that the district court abused its
discretion in denying his Rule 14(a) motion
for a separate trial.
IV.
[30, 31] Admission of Exhibit 439. Rule
16 of the Federal Rules of Criminal Procedure broadly mandates disclosure of material documents within the government’s
control upon a defendant’s request. Rule
16(a)(1)(E) provides:
Upon a defendant’s request, the government must permit the defendant to inspect or copy or photograph books, papers, documents, data, photographs,
tangible objects, buildings or places TTT
if the item is within the government’s
possession, custody, or control and (i)
the item is material to preparing the
defense; (ii) the government intended to
use the item in its case-in-chief at trial;
or (iii) the item was obtained from or
belongs to the defendant.
Additionally, Rule 16(c) provides:
A party who discovers additional evidence or material before or during trial
must promptly disclose its existence to
the other party or the court if (1) the
evidence or material is subject to discovery or inspection under this rule; and (2)
the other party previously requested, or
the court ordered, its production.
Defense counsel sought discovery well
before trial began in September and yet it
was not until three weeks into the trial,
almost at the end of the government’s
case-in-chief, that the government dis-

closed Exhibit 439. A month before trial,
the prosecutor asked Don Shearer, the
Director of Health Care Operations at
DHCF, if it was possible to quantify the
amount of actual fraud at Global, and
Shearer prepared the report, which purported to show that 567 D.C. Medicaid
beneficiaries for whom Global received
Medicaid reimbursements did not receive
personal care services after Global closed.
See Concurring Op. at 801–02 (Rogers, J.).
Defense counsel objected to admission of
Exhibit 439 on the grounds that doing so
would be ‘‘unfair’’ sandbagging and that
identification and production of the report
was ‘‘untimely.’’ Tr. 16 (Nov. 3, 2015 PM).
On appeal, appellants contend that the
government was obligated under Rule 16
to disclose Exhibit 439 and the underlying
data, and that its admission with less than
one day’s notice violated their substantial
rights. The government responds that it
did not have an obligation to disclose Exhibit 439 until it received the report.
The court need not decide whether the
government’s terribly late production of
Exhibit 439 constituted impermissible
sandbagging under Rule 16. See United
States v. Marshall, 132 F.3d 63, 69 (D.C.
Cir. 1998). Even if the government violated
Rule 16, there is no basis to conclude that
the district court abused its discretion by
not excluding the report. On cross-examination, defense counsel raised doubts
about the probative value of Exhibit 439
for quantifying the health care fraud.
Shearer, who prepared the report, admitted that he did not know how many of
Global’s previous beneficiaries were no
longer receiving Medicaid services because
they were deceased or disqualified as a
result of increased income.
[32, 33] Cross-examination thus took
some of the sting out of the report, much
as the district court anticipated in refer-

U.S. v. BIKUNDI
Cite as 926 F.3d 761 (D.C. Cir. 2019)

ring to the report as ‘‘ripe fodder’’ for
cross-examination. Tr. 112 (Nov. 3, 2015
PM). Defense counsel objected that the
district court’s suggestion of an overnight
postponement so defense counsel could interview Shearer would not suffice. But
defense counsel did not request a continuance or move for a mistrial. Instead defense counsel objected to admission of
Exhibit 439 into evidence. Rule 16(d)
vests broad authority in the district court
to regulate discovery, including by
‘‘grant[ing] a continuance’’ where ‘‘a party
failed to comply with th[e] rule,’’ and the
district court found no bad faith by the
government in the late production of Exhibit 439. See Tr. 111 (Nov. 3, 2015 PM).
Under the circumstances, even assuming
a Rule 16 violation, appellants fail to establish the requisite prejudice to their
substantial rights for the court to conclude that the district court abused its
discretion by not excluding Exhibit 439.4
V.
[34, 35] Sufficiency of the Evidence.
Florence and Michael challenge the sufficiency of the evidence on multiple fronts,
arguing that because the government
failed to prove guilt beyond a reasonable
doubt the district court erred in denying
their motions for judgment of acquittal on
various counts. We review ‘‘de novo the
denial of a motion for acquittal, viewing
the evidence in the light most favorable to
the Government.’’ United States v. Stoddard, 892 F.3d 1203, 1213 (D.C. Cir. 2018).
A.
[36] Money Laundering and Conspiracy. Florence and Michael first claim that
the government failed to prove beyond a
reasonable doubt they had the requisite
4.

To the extent appellants argue the report
was inadmissible under the Federal Rules of
Evidence, this argument is insufficiently developed, Schneider v. Kissinger, 412 F.3d 190,

783

criminal intent to commit money laundering (Counts 16–22). To overcome this argument, the government had to present evidence from which a reasonable jury could
find that the transactions were ‘‘designed
in whole or in part TTT to conceal or
disguise the nature, the location, the
source, the ownership, or the control of the
proceeds of specified unlawful activity.’’ 18
U.S.C. § 1956(a)(1)(B)(i).
The government based the seven money
laundering convictions on seven transactions. All seven have the same basic structure: almost immediately after D.C. Medicaid deposited reimbursement funds into a
Global intake account, Florence and Michael moved a substantially identical
amount of money to a different Global
corporate account (and, for one transaction, from that corporate account to an
account owned by Florence’s Maryland
business, Flo-Diamond). From there, Florence and Michael quickly transferred the
money to an account associated with one of
two other corporations: CFC or Tri-Continental. Both Florence and Michael are signatories to every bank account involved in
these transactions.
According to Florence and Michael,
‘‘[n]o rational juror could conclude’’ the
charged ‘‘transactions were designed to
conceal the nature or source of the funds’’
because each transaction ‘‘transferred
money to accounts on which Appellants
had signing authority’’ and ‘‘that were
owned by companies that Appellants openly owned.’’ Appellants’ Br. 47–48. A fundamental logical disconnect lurks in this argument: even if Florence and Michael
made no effort to conceal the money’s
ownership, they are still guilty if they
tried to hide the money’s source. Cf. Unit200 n.1 (D.C. Cir. 2005), and in any event, the
objections come too late, see United States v.
White, 116 F.3d 903, 923 (D.C. Cir. 1997).

784

926 FEDERAL REPORTER, 3d SERIES

ed States v. Warshak, 631 F.3d 266, 320
(6th Cir. 2010) (finding sufficient evidence
of intent to conceal ‘‘the exact source of
the proceeds’’ even when ‘‘a number of the
transactions were made under relatively
open circumstances’’).
And, in fact, the evidence betrayed that
Florence and Michael were attempting to
conceal the money’s provenance. CFC and
Tri-Continental had no obvious connection
to the home health care industry or, for
that matter, any legitimate raison d’être.
CFC’s articles of incorporation listed its
purpose as ‘‘real estate investment’’ and
Florence’s son, Carlson Igwacho, as the
company’s resident agent. Carlson, however, testified that he never signed CFC’s
articles and that the company ‘‘didn’t do
any business.’’ Tr. 67 (Oct. 28, 2015 PM).
Records confirmed that — despite its putative concern with ‘‘real estate’’ — CFC
owned a single piece of real property, purchased with Global funds, and had no significant expenditures associated with real
estate. The record is devoid of evidence
that CFC had any independent income or
clients. Tri-Continental’s story is much the
same: although its listed purpose was the
‘‘import/export business,’’ there is no evidence it ever imported or exported anything at all.
[37] In a nutshell, the jury had ample
basis to conclude that CFC and Tri-Continental were classic sham corporations, created for cleansing the money passing
through them of any association with D.C.
Medicaid. This court has recognized that
such ‘‘funneling’’ of ‘‘illegal funds through
various fictitious business accounts’’ is a
hallmark of money laundering. United
States v. Adefehinti, 510 F.3d 319, 323
(D.C. Cir. 2007) (quoting United States v.
Esterman, 324 F.3d 565, 572 (7th Cir.
2003) ).
Other hallmarks of an intent to conceal
populate the broader landscape of Florence’s and Michael’s finances. For in-

stance, Florence and Michael routinely
engaged in ‘‘convoluted financial transactions’’ and ‘‘inter-company transfers’’ with
no clear purpose. Id. (quoting Esterman,
324 F.3d at 572). All told, Florence and
Michael controlled at least 122 bank accounts, only a fraction of which had any
immediate connection to the health care
industry. Nonetheless, over a five-year period, a towering ninety percent of the
money passing through those accounts
came from D.C. Medicaid (with Maryland
Medicaid being one of the ‘‘main sources’’
of the remaining ten percent). Tr. 131
(Nov. 3, 2015 AM). In that same period,
Florence and Michael engaged in many
transactions — indeed, over seven million
dollars’ worth — involving cashier’s
checks. As the government’s agent testified, one advantage of cashier’s checks,
from a money launderer’s perspective, is
that the ‘‘recipient wouldn’t know the actual source that’s funding the check.’’ Tr.
96 (Nov. 4, 2015 AM). Predictably, then,
aspiring launderers ‘‘frequently use TTT
cashier’s checks to TTT make the transfers
that are charged as money laundering.’’
United States v. Willey, 57 F.3d 1374,
1386 n.23 (5th Cir. 1995). A reasonable
jury could find based on the frequent use
by Florence and Michael of such checks,
considered alongside their various other
financial maneuvers, that they sought to
conceal the source of these funds.
[38] Florence and Michael search in
vain for aid from the handful of cases
where this court has reversed money laundering convictions. First, they invoke the
principle, articulated in United States v.
Law and United States v. Stoddard, that
‘‘when faced with an innocent explanation
sufficiently supported by the evidence to
create a reasonable doubt about the defendant’s guilt, the [g]overnment’s burden is
to present evidence sufficient to dispel that
doubt.’’ Stoddard, 892 F.3d at 1214 (quot-

U.S. v. BIKUNDI
Cite as 926 F.3d 761 (D.C. Cir. 2019)

ing Law, 528 F.3d 888, 896 (D.C. Cir.
2008)). But neither of the two explanations
offered by Florence and Michael for the
transactions creates such doubt. First,
they claim the companies were Global’s
‘‘corporate siblings.’’ That threadbare explanation raises more questions than it
answers: why is Global, a company with
real human clients and an independent
revenue stream, sending millions of dollars
to its ‘‘siblings’’ that apparently do no business at all? Second, Florence and Michael
claim that they sought to avoid becoming
victims of fraud themselves after someone
attempted to draw a fraudulent check on a
Global account. This explanation is equally
far-fetched: it might explain why they
sought to move money out of the targeted
account, but it does nothing to clarify why
they created sham corporations.
Shifting gears, Florence and Michael
turn to United States v. Adefehinti where
this court held that the money laundering
statute ‘‘has no application to the transparent division or deposit of’’ criminal proceeds. 510 F.3d at 322. The court applied
that principle to the proceeds of a real
estate fraud scheme in which the defendants flipped properties from fake sellers
to fake buyers. Id. at 321. The charged
transaction in Adefehinti began with a settlement check from one of these fictional
sellers. Id. at 322. The check included the
address of the property sold and identified
the funds as the sale’s proceeds. Id. After
being endorsed to yet another fictional
person (unconnected to the original real
estate transaction), the same check was
negotiated in person at a bank. Id. ‘‘Immediately thereafter,’’ the proceeds were split
four ways: into two accounts for which the
defendants were signatories, into one unrelated account, and into cash. Id. Observing that these were ‘‘simple transactions
that can be followed with relative ease,’’
this court held that no juror could find an
intent to conceal the source of the funds
because ‘‘all the proceeds of the initial

785

check were either cashed or went directly
into accounts in the name of defendants or
their associates without passing through
any other person’s account.’’ Id. at 323
(internal quotation marks omitted).
The instant case differs fundamentally
from Adefehinti. True, both involve fake
entities beyond those participating in the
initial fraud (there, the fake person negotiating the check; here, CFC or Tri-Continental). Crucially, however, in Adefehinti
the check used to settle the transaction
and later deposited into the defendants’
accounts retained a visible link to the
source of the funds — the real estate
transaction — until it entered the defendants’ personal accounts. Not so here. As
the investigating agent testified, once the
money went into a CFC or Tri-Continental
account, observers ‘‘would have absolutely
no way of knowing that the money TTT
came from the D.C. Government to Global
Health Care.’’ Tr. 75 (Nov. 4, 2015 AM).
And although Florence and Michael also
claim that, as in Adefehinti, the investigator admitted she could easily trace the
transactions at issue, that position rests on
a mischaracterization of the agent’s testimony. True, the agent said that the necessary records were ‘‘readily accessible,’’ Tr.
97 (Nov. 3, 2015 PM), but she also clarified
that the job of actually untangling the
Bikundis’ complicated finances was laborious, requiring ‘‘many months TTT working
on it seven days a week for probably eight,
ten hours a day,’’ Tr. 74 (Nov. 4, 2015 AM).
Having woven such an intricate web,
Florence and Michael were doing more
than just divvying up or spending the proceeds of fraud — conduct which might
have given them a better claim for acquittal under Adefehinti. Instead, the government presented evidence on which a reasonable jury could find that Florence and
Michael created an elaborate network of
bank accounts involving two sham corpora-

786

926 FEDERAL REPORTER, 3d SERIES

tions and funneled money into them, effacing any obvious link to D.C. Medicaid or
the health care business. Nor were these
‘‘simple transactions TTT followed with relative ease,’’ 510 F.3d at 323; nothing in
Adefehinti requires a jury to acquit when
the defendants’ schemes are vulnerable to
dogged investigation. The government’s
evidence allowed a reasonable jury to find
Florence and Michael had the intent to
conceal, and the substantive money laundering convictions must therefore be affirmed.
[39] Florence and Michael also challenge their money laundering conspiracy
convictions (Count 15). The jury found
that, as objects of the conspiracy, Florence
and Michael planned to conceal the source
of the funds, in violation of 18 U.S.C.
§ 1956, and to engage in transactions using the proceeds of their fraudulent conduct, in violation of 18 U.S.C. § 1957. As
long as the evidence is sufficient to support
one of those two objects, the court must
affirm. See United States v. Johnson, 216
F.3d 1162, 1165 (D.C. Cir. 2000) (‘‘[A] verdict cannot be overturned on the ground
that the evidence is sufficient as to [only]
one of [multiple charged acts].’’). Florence
and Michael’s sole challenge to the concealment object entirely duplicates their
argument on the substantive money laundering charges, namely that no reasonable
juror could conclude the transactions were
designed to conceal the nature or ownership of the D.C. Medicaid proceeds, and
those arguments are equally unsuccessful
in the conspiracy context. We therefore
affirm the conspiracy convictions for the
same reasons we affirm their substantive
convictions, without reaching the § 1957
object.
B.
[40] Exclusion-Based Health Care
Fraud. Florence claims that the two counts
premised on founding and operating Global

despite her exclusion from federal health
care programs — health care fraud in
Count 13 and making false statements in a
health care matter in Count 14 — cannot
be sustained because the government
failed to prove beyond a reasonable doubt
that she knew about that exclusion.
[41] As the parties agree, to convict on
both counts, the government had to prove
beyond a reasonable doubt that Florence
had knowledge of her federal exclusion.
See 18 U.S.C. § 1347(a) (Count 13); 42
U.S.C. § 1320a-7b(a)(3) (Count 14). Direct
evidence of knowledge being rare, the government is likely to rely on circumstantial
evidence. United States v. Torres, 894 F.3d
305, 311 (D.C. Cir. 2018). ‘‘Such indirect
evidence might include a defendant’s conduct before, during, or after the charged
criminal acts, or the facts and circumstances known to [her] when [s]he acted.’’
Id.
[42, 43] The government’s strongest,
even compelling, evidence is a Global employee’s resume, seized from Florence’s
house, featuring two handwritten notations
nearly side-by-side. Gov. Ex. 428 at 1. The
first appears to be a reminder related to a
different employee’s resume. Id. (‘‘Need
Resume of Administrator (James Mbide)’’).
The second is the complete URL web address linking to the HHS’s searchable online database of everyone who has been
excluded from federal health care programs — a database that includes Florence’s maiden name. Id. (‘‘http://oig.hhs.
gov/fraud/exclusions.asp’’). Florence’s own
brother testified that the handwriting on
the first notation, written in the same color
as the URL address, belonged to Florence.
Florence fights the obvious inference that
she penned the second notation too, noting
that her brother was unable to identify the
URL handwriting as hers. Worse still, she
claims, the jury heard no expert testimony
at all about the handwriting. These argu-

787

U.S. v. BIKUNDI
Cite as 926 F.3d 761 (D.C. Cir. 2019)

ments needlessly make the perfect the enemy of the good — the jury required no
definitive identification or expert analysis
to apply its own common sense. Cf. 28
U.S.C. § 1731 (‘‘The admitted or proved
handwriting of any person shall be admissible, for purposes of comparison, to determine genuineness of other handwriting attributed to such person.’’); Fed. R. Evid.
901(b)(3) (‘‘A comparison with an authenticated specimen by an expert witness or the
trier of fact’’ may satisfy ‘‘the requirement
of authenticating or identifying an item of
evidence.’’ (emphasis added)). Given our
standard of review, the key question is
what ‘‘rational juror[s]’’ could conclude, not
what they had to conclude. United States
v. Williams, 836 F.3d 1, 7 (D.C. Cir. 2016).
And a reasonable juror — looking at the
annotated resume found in Florence’s
house and armed with her brother’s testimony — reasonably could find that Florence wrote the website address herself.
Having identified the handwriting as
Florence’s, the jury could then reasonably
infer that Florence actually visited the listed site and typed her own maiden name
into the database. Indeed, it is more difficult to reach the opposite conclusion,
knowing as we do that Florence indisputably learned her eligibility was in serious
jeopardy when she received a letter HHS
telling her as much. That small step furnishes the final piece of the puzzle: typing
her name into the database would have put
Florence on actual notice that she was
excluded from federal health care programs, including Medicaid.
The government correctly argues that
Florence’s habit of using her married
name on health care-related forms (well
before she was actually married) further
supports the inference of guilty knowledge.
It takes no logical leap to conclude that
such a practice was designed to avoid triggering a hit when regulators cross-checked
Florence’s paperwork against the HHS da-

tabase. As Florence points out, she deviated from this pattern on certain occasions,
including once on Global’s Medicaid provider application form. But a jury could
reasonably find that these isolated incidents resulted from sloppiness rather than
innocence. Florence also tells us that her
use of ‘‘Bikundi’’ aligns with the Cameroonian custom of using a married name after
a dowry has been paid. Superficially attractive, this explanation falls apart on
closer scrutiny. Indeed, Florence signed
one non-health care form (a mortgage application) using her maiden name just days
before her wedding, years after Michael
supposedly paid the dowry. Combined with
the resume notation, and viewing the evidence as favorably as possible for the government as we must, Florence’s selective
use of ‘‘Bikundi’’ on health care-related
forms suggests she actually knew that using ‘‘Igwacho’’ might trigger a hit in the
exclusion database. Added to the rest, the
evidence is more than adequate to sustain
Florence’s exclusion-based convictions.
C.
[44] Health Care Fraud and Conspiracy. Michael claims there was insufficient
evidence to support his conviction by the
jury on health care fraud (Count 2) and
the two objects of the health care fraud
conspiracy (Count 1). Once again, it is
common ground that both charges require
proof Michael intended to defraud D.C.
Medicaid. See 18 U.S.C. §§ 1347(a), 1349.
Michael’s position is that he had no such
goal.
According to Michael, the district court
should have inferred that he lacked the
necessary intent based on a laundry list of
things he did not personally do, including
creating Global, recruiting or paying off
bogus beneficiaries, or falsifying certain
categories of documents. See Appellants’
Br. 79. To call this argument cherry-pick-

788

926 FEDERAL REPORTER, 3d SERIES

ing would be a considerable understatement. Michael asks us to ignore heaps of
relevant evidence showing that he intended to defraud D.C. Medicaid authorities.
To hit just some of the highlights:
(1) Michael knew about and encouraged
Global’s efforts to fake or destroy records.
For example, he supervised the progress
of nurses who used white-out to alter patient records while auditors were on site
waiting for those records. On another occasion, he gave Florence’s personnel file to a
Global employee and instructed her to
shred it just one day after auditors requested it.
(2) Regardless of whether Michael personally recruited or paid patients, he knew
about and tolerated Global’s practice of
keeping patients ineligible for Medicaid
benefits on its rolls. In fact, when one
employee suggested reassessing and discharging some potentially unfit patients,
Michael demurred, telling the employee to
‘‘put a business hat on [his] head.’’ Tr. 22
(Oct. 19, 2015 AM).
(3) Michael knew that at least some
Global employees lacked current qualifications required by D.C. regulations. He
directed one staff member to erase and
replace expired dates on employee certifications.
(4) Michael once argued with Florence
about the quality of Global’s document alteration, staking out the less-than-virtuous
position that the results did not look real
enough.
Given this evidence, Michael’s claim that
his case is just like United States v. Rufai,
732 F.3d 1175 (10th Cir. 2013), fails. There,
the defendant, Olalekan Rufai, assisted a
long-time acquaintance by setting up a
company that the acquaintance concededly
used to defraud Medicare. Id. at 1193. The
Tenth Circuit reversed Rufai’s health care
fraud conviction, concluding the prosecution ‘‘presented no evidence that Mr. Rufai
interacted with Medicare’’ or ‘‘knew that

[his acquaintance] was planning to or did
submit false bills for Medicare reimbursement,’’ and Rufai was ‘‘never on site when
[the company] was billing Medicare.’’ Id.
How different a position Michael finds
himself in: the government’s evidence
showed Michael did interact with D.C.
Medicaid, he did know Global was falsifying records, and he was on site for billing
and other fraudulent practices.
[45] Perhaps sensing the uphill nature
of his climb, Michael claims for the first
time in his reply brief that multiple government witnesses who testified about his
misdeeds at Global were ‘‘inherently incredible.’’ Appellants’ Reply Br. 32. As we
must view the evidence in the light most
favorable to the government, Stoddard,
892 F.3d at 1213, the bar Michael must
clear to succeed on the inherently incredible argument, assuming it is not forfeited,
is high indeed. Credibility determinations
are properly entrusted to the jury. See
Johnson v. United States, 426 F.2d 651,
655 (D.C. Cir. 1970) (en banc) (‘‘Of all the
issues which are in the highest order for a
jury one is hard pressed to suggest one
more firmly intended and more plainly
suited for jury determination than that of
credibility.’’). Michael misses that bar by a
mile. His argument rests primarily on the
fact that several of the government’s witnesses were cooperating co-defendants.
But here their cooperator status alone cannot mean that the testimony was necessarily ‘‘inherently incredible.’’ His remaining
objections amount to nothing more than
quibbles that the government’s evidence
could have been even stronger on certain
issues, but that tells us nothing about
whether the evidence the government actually presented was strong enough to convict.
Simply put, the government provided
ample evidence for the jury to find beyond
a reasonable doubt that Michael intended

U.S. v. BIKUNDI
Cite as 926 F.3d 761 (D.C. Cir. 2019)

to defraud D.C. Medicaid. That finding, in
turn, suffices to sustain his substantive
health care fraud conviction and at least
one object of the health care fraud conspiracy count (namely, the very health care
fraud that is the basis of the substantive
conviction). As with the money laundering
conspiracy, then, we need not address
whether the evidence was sufficient to support the second object the jury found
(making false statements in a health care
matter). See Johnson, 216 F.3d at 1165.
Michael’s health care fraud convictions
must therefore be affirmed.
VI.
[46–48] Jury Instructions. Florence
and Michael attempt two challenges to the
jury instructions. First, they claim that the
jury should have been charged that it had
to agree unanimously on a single health
care fraud incident. Second, Michael protests the district court’s decision to give an
instruction on aiding and abetting health
care fraud. Because they failed to raise
these issues in the district court, our review is for plain error. These arguments
can only succeed if ‘‘(1) the District Court
erred, (2) the error was clear or obvious,
(3) the error affected [their] substantial
rights, and (4) the error ‘seriously affect[ed] the fairness, integrity or public
reputation of judicial proceedings.’ ’’ United States v. Moore, 703 F.3d 562, 569 (D.C.
Cir. 2012) (quoting United States v. Olano,
507 U.S. 725, 732–36, 113 S.Ct. 1770, 123
L.Ed.2d 508 (1993) (second alteration in
original)).
A.
Unanimity. Florence and Michael claim
that the district court erred in failing,
without prompting, to instruct the jurors
that they not only had to unanimously find
Florence and Michael guilty of health care
fraud in general, they also all had to agree
on the same particular fraudulent claim for
reimbursement. It is unclear whether they

789

ground this objection in the Fifth Amendment’s protection against duplicitous indictments or the Sixth Amendment’s requirement for a unanimous jury verdict.
Either way, however, the argument fails.
We do not consider this issue on a blank
slate. In an unbroken line of precedent
stretching back over thirty years, addressing both Fifth and Sixth Amendment concerns, this court has repeatedly declined to
find plain error under similar circumstances. United States v. Brown, 892 F.3d
385, 393 (D.C. Cir. 2018) (‘‘Because there is
no precedent of the Supreme Court or this
court requiring a district court to give a
special unanimity instruction sua sponte in
circumstances like those in this case, the
district court’s failure to do so cannot constitute plain error.’’); United States v.
Hurt, 527 F.3d 1347, 1352–56 (D.C. Cir.
2008) (‘‘The district court did not plainly
err in failing to deliver a sua sponte special unanimity instruction.’’); United States
v. Klat, 156 F.3d 1258, 1266–67 (D.C. Cir.
1998) (‘‘We cannot conclude that it was
plain error not to give a special unanimity
instruction’’ where ‘‘an indictment charges
more than one act.’’); United States v.
Mangieri, 694 F.2d 1270, 1281 (D.C. Cir.
1982) (‘‘We cannot conclude, however, that
it was plain error not to give the more
particularized [unanimity] instruction in
this case.’’).
Florence and Michael have not pointed
to any intervening legal developments that
have changed that conclusion. They cite
three cases to support their claim that this
error was plain, but none help. Two of
these cases — United States v. Bruce, 89
F.3d 886, 890 (D.C. Cir. 1996), and United
States v. Clark, 208 F. App’x 137, 141 (3d
Cir. 2006) — approved of a district court’s
decision to give a special unanimity instruction; neither addressed whether failure to give such an instruction would have
been error. The third, United States v.

790

926 FEDERAL REPORTER, 3d SERIES

Adkinson, 135 F.3d 1363, 1377–78 (11th
Cir. 1998), does say, in dicta, that failing to
give such an instruction was plain error.
But Adkinson relies chiefly on United
States v. Gipson, 553 F.2d 453 (5th Cir.
1977), which a plurality of the Supreme
Court has cast significant doubt on, see
Schad v. Arizona, 501 U.S. 624, 635, 111
S.Ct. 2491, 115 L.Ed.2d 555 (1991) (‘‘We
are not persuaded that the Gipson approach really answers the question.’’). The
Supreme Court’s misgivings ultimately led
this circuit to reject Gipson’s reasoning in
United States v. Harris, 959 F.2d 246,
255–56 (D.C. Cir. 1992) (per curiam). Regardless of whether Schad and Harris
leave open the possibility that unanimity
might be required under a theory different
from Gipson’s, the district court here did
not plainly err by failing, sua sponte, to
apply out-of-circuit precedent with such a
dubious pedigree. Accordingly, the failure
to give a special unanimity instruction was
not plain error.
B.
Health
[49, 50] Aiding-and-Abetting
Care Fraud. Michael further claims that
the district court plainly erred when it
gave an aiding and abetting instruction on
the health care fraud count. But giving the
instruction was not error — much less a
plain one — because the evidence supported it. See supra pp. 786–87 (listing
evidence of Michael’s involvement in facilitating Global’s health care fraud). Moreover, any error was harmless because the
evidence was also sufficient to convict Michael as a principal. See id.; United States
v. Smith, 697 F.3d 625, 637 (7th Cir. 2012)
(aiding and abetting instruction was not
prejudicial where the ‘‘evidence overwhelmingly supported the jury’s guilty
verdict based on [the defendant] acting as
the principal’’). The aiding and abetting
instruction provides no basis to overturn
the jury’s verdict.

VII.
Sentencing. Finally, Florence and Michael challenge their sentences, specifically
the restitution orders, forfeiture judgments, and sentencing enhancements imposed by the district court. We reject each
of these challenges.
A.
[51, 52] Restitution. As restitution, the
district court ordered Florence and Michael each to pay D.C. Medicaid approximately $ 80.6 million. This sum, the district court found, represented the total
payments from D.C. Medicaid to Global —
and thus the total loss suffered by D.C.
Medicaid due to Florence and Michael’s
fraud. Florence and Michael were ordered
to make restitution ‘‘jointly and severally’’
with each other and the other defendants,
meaning each defendant is liable for D.C.
Medicaid’s entire loss, but D.C. Medicaid
may recover no more than that amount
from all of the defendants combined. See
18 U.S.C. § 3664(h); Honeycutt v. United
States, ––– U.S. ––––, 137 S. Ct. 1626,
1631–32, 198 L.Ed.2d 73 (2017); United
States v. Cano-Flores, 796 F.3d 83, 95
(D.C. Cir. 2015). We review restitution orders for abuse of discretion. United States
v. Fair, 699 F.3d 508, 512 (D.C. Cir. 2012).
[53–56] The Mandatory Victims Restitution Act (‘‘MVRA’’) directs federal courts
to impose restitution when sentencing defendants convicted of various crimes, including certain frauds in which an identifiable victim suffered a monetary loss. 18
U.S.C. § 3663A(c)(1). In such cases, the
district court ‘‘shall order’’ the defendant
to ‘‘make restitution to [each] victim of the
offense’’ in ‘‘the full amount of each victim’s losses as determined by the court
and without consideration of the economic
circumstances of the defendant.’’ Id.
§§ 3663A(a)(1), 3664(f)(1)(A). Restitution is
‘‘essentially compensatory,’’ not punitive: it

U.S. v. BIKUNDI
Cite as 926 F.3d 761 (D.C. Cir. 2019)

simply ‘‘restore[s] a victim, to the extent
money can do so, to the position [the victim] occupied before sustaining injury.’’
Fair, 699 F.3d at 512 (quoting United
States v. Boccagna, 450 F.3d 107, 115 (2d
Cir. 2006)). Thus, restitution is ‘‘limited to
the actual, provable loss suffered by the
victim and caused by the offense conduct.’’
Id. The burden of proving ‘‘the amount of
the loss’’ is borne by the government, but
the ‘‘burden of demonstrating such other
matters as the court deems appropriate
shall be upon the party designated by the
court as justice requires.’’ 18 U.S.C.
§ 3664(e). The amount of restitution ordered by a district court must be supported by a preponderance of the evidence.
Id.
Florence and Michael contest the
amounts of their restitution. They argue
that the government did not carry its
burden of proving loss because the evidence failed to distinguish between fraudulent services and ‘‘legitimate services’’
performed by Global. Appellants’ Br. 85–
87. By legitimate services, Florence and
Michael appear to mean the necessary
services that Global personal care aides
actually provided to real Medicaid beneficiaries. See id. at 85. Amounts paid for
such services, they argue, were not ‘‘losses’’ suffered by D.C. Medicaid. After all,
in exchange for such payments, beneficiaries received necessary services covered
by D.C. Medicaid, and if the payments
had not gone to Global, they simply would
have gone to a different provider. Thus,
because D.C Medicaid did not lose the
entire $ 80.6 million it paid to Global, restitution in that amount violates the
MVRA. See id. at 86–88.
As the district court acknowledged,
there was testimony presented at trial
about legitimate services being both
needed and provided by Global personal
care aides to D.C. Medicaid beneficiaries.
But the district court found that ‘‘the de-

791

fendants’ fraud makes it impossible to
determine what, if any, services were legitimately rendered, let alone what the
[values] associated with those legitimate
services are.’’ Tr. 34 (June 1, 2016 AM).
‘‘Not only were the time sheets falsified,
but the defendants also supervised and
directed the creation of phony employee
background checks, fake nurse notes, and
fraudulent plans of care.’’ Id. This ‘‘rampant fraud TTT permeated Global’s operations,’’ potentially infecting ‘‘every patient
and employee file there.’’ Id. at 36.
Due to the pervasive fraud, Florence
and Michael were ‘‘in a much better position than the government to ascertain the
particular facts at issue,’’ specifically
whether any services were truly legitimate. Fair, 699 F.3d at 515. Indeed, on
this record, only they know the full extent
of their fraudulent operations, so they
were far better-equipped to identify any
services that were unaffected by fraud in
licensing, care plans, provision, or billing.
[57–59] In such circumstances, although the ultimate burden of proving loss
always remains with the government, the
MVRA authorizes the district court to
place on the defendant a burden of producing evidence of any legitimate services. 18
U.S.C. § 3664(e); see Fair, 699 F.3d at 515
(citing United States v. Archer, 671 F.3d
149, 173 (2d Cir. 2011)). If the defendant
carries this burden of production, the prosecution must then prove the fraudulent
nature of those services. See Archer, 671
F.3d at 173. But, if the defendant does not
produce evidence of legitimate services,
the prosecution need not show that each
and every service was fraudulent. Rather,
the prosecution may rely on the existence
of a pervasive fraud to argue that all services were infected by fraud in some way,
and therefore that payments for all services represent loss under the MVRA. See
id. at 173–74. The district court then de-

792

926 FEDERAL REPORTER, 3d SERIES

termines the amount lost by a preponderance of the evidence. 18 U.S.C.
§§ 3663A(a)(1), 3664(e). This approach
helps ensure that fraudsters do not benefit
from the comprehensive alteration of their
own records. See Fair, 699 F.3d at 515;
United States v. Hebron, 684 F.3d 554, 563
(5th Cir. 2012).
Here, against significant evidence of
pervasive fraud, Florence and Michael
failed to produce any specific evidence of
the value of any legitimate services. Indeed, the district court found that they
‘‘haven’t even attempted to undertake that
daunting task because they likely can’t
tell’’ whether any services were legitimate.
Tr. 35 (June 1, 2016 AM). ‘‘Certainly, no
witness at trial TTT who worked at Global
was able to say which employee or patient
files might have been completely legitimate and clean of fraud.’’ Id. Because
Florence and Michael did not carry their
burden of production as to any legitimate
services, the district court properly concluded that the $ 80.6 million in payments
from D.C. Medicaid to Global constituted
loss under the MVRA.
B.
[60] Forfeiture. The district court also
ordered Florence and Michael each to forfeit approximately $ 39.7 million (for the
health care fraud offenses) and $ 40.0 million (for the money laundering offenses) to
be assessed concurrently, meaning that
money forfeited by Florence counts toward
her forfeiture judgments for both health
care fraud and money laundering, and the
same goes for Michael. In total, therefore,
each must forfeit approximately $ 40.0
million.
[61] To calculate the forfeitures, the
district court first found that Global’s
Medicaid proceeds of approximately $ 80
million (less a few minor deductions) were
subject to forfeiture under the statutes for
both health care fraud, 18 U.S.C.

§ 982(a)(7), and money laundering, id.
§ 982(a)(1). The court then divided the
approximately $ 80 million equally between Florence and Michael, reasoning
that they were ‘‘equally responsible’’ and
should each forfeit half of the funds because they ‘‘jointly obtained TTT the illicit
funds through their shared management
and control over Global, and they effectively treated the proceeds as joint property.’’
Tr. 27–28 (Apr. 27, 2016 AM). The court
also ordered Florence and Michael to forfeit specific pieces of property, including
cash, vehicles, jewelry, and real property,
with the values of the forfeited properties
to be credited on a fifty-fifty basis toward
each of their forfeiture money judgments.
Reviewing such forfeiture judgments, we
examine the district court’s fact finding for
clear error and its legal interpretations de
novo. United States v. Emor, 785 F.3d 671,
676 (D.C. Cir. 2015).
[62] Florence and Michael contest the
forfeiture judgments in three ways; none is
persuasive. First, they argue that the relevant statutes do not authorize forfeiture of
the entire $ 80 million. A defendant convicted of health care fraud must forfeit
property ‘‘that constitutes or is derived,
directly or indirectly, from gross proceeds
traceable to the commission of the [health
care fraud] offense.’’ 18 U.S.C. § 982(a)(7).
This does not cover Global’s total proceeds, they maintain, because the Medicaid
payments for certain legitimate services
were not connected to the health care
fraud offenses.
[63, 64] Their argument overlooks the
breadth of the forfeiture statute: ‘‘Gross
proceeds traceable to’’ the fraud include
‘‘the total amount of money brought in
through the fraudulent activity, with no
costs deducted or set-offs applied.’’ United
States v. Poulin, 461 F. App’x 272, 288
(4th Cir. 2012); cf. United States v. DeFries, 129 F.3d 1293, 1313–15 (D.C. Cir.

U.S. v. BIKUNDI
Cite as 926 F.3d 761 (D.C. Cir. 2019)

1997) (rejecting the argument that forfeiture of RICO ‘‘proceeds’’ should be reduced to reflect defendants’ tax payments).
And whereas other forfeiture statutes allow credit for ‘‘lawful services,’’ see, e.g., 18
U.S.C. § 981(a)(2)(B), the statute for
health care fraud does not. Here, the district court found that Global ‘‘would not
have operated but for [each] defendant’s
fraud,’’ and that the approximately $ 80
million ‘‘was only paid due to the defendants’ persistent and rampant fraudulent
conduct.’’ Preliminary Order of Forfeiture
(‘‘Florence POF’’), United States v. Florence Bikundi, No. 1:14-cr-0030-1 (D.D.C.
Apr. 22, 2016), ECF No. 493 at 3 (emphasis added); Preliminary Order of Forfeiture (‘‘Michael POF’’), United States v.
Michael Bikundi, No. 1:14-cr-0030-2
(D.D.C. Apr. 22, 2016), ECF No. 494 at 3
(emphasis added); Tr. 27 (Apr. 27, 2016
AM) (emphasis added); see also Tr. 33
(June 1, 2016 AM) (incorporating Tr. 25
(Apr. 27, 2016 AM): Global’s ‘‘continuing
operations were maintained based on
fraudulent records in employee and patient
files and fraudulent timesheets submitted
for reimbursement’’). Because the pervasive fraud was integral to each and every
Medicaid payment to Global, the district
court properly determined that the total
payments ‘‘constitute[d]’’ or were ‘‘derived,
directly or indirectly’’ from ‘‘gross proceeds traceable’’ to each of their health
care fraud offenses. 18 U.S.C. § 982(a)(7).
[65, 66] Florence and Michael also argue that neither of their concurrent forfeitures for money laundering are authorized
by statute. A defendant convicted of money laundering must forfeit ‘‘any property,
real or personal, involved in such offense,
or any property traceable to such property.’’ Id. § 982(a)(1). The district court calculated these forfeitures by starting with
approximately $ 80.6 million, i.e., ‘‘the total value of D.C. Medicaid payments’’ deposited into three Global Intake Accounts.
Florence POF at 4; Michael POF at 4. The

793

district court then reduced that sum by the
balance remaining in the Global Intake
Accounts, which represented ‘‘the value of
property that was not transferred out of a
Global Intake Account into other financial
accounts controlled by the defendants.’’ Id.
This left a ‘‘forfeiture amount’’ of approximately $ 80 million ($ 79,979,712.05, to be
exact), which the court divided equally between Florence and Michael by ordering
each to forfeit approximately $ 40 million.
Id.
[67] Florence and Michael challenge
this calculation by pointing out that the
government showed only that seven transactions (amounting to $ 2.61 million) constituted actual money laundering. This argument was not raised in the district
court, so we review its merits for plain
error. See Brown, 892 F.3d at 397.
[68, 69] This argument ignores that the
money laundering forfeiture statute applies not only to funds that are actually
laundered — here, the $ 2.61 million —
but also to those more broadly ‘‘involved
in’’
money
laundering.
18
U.S.C.
§ 982(a)(1). The statute sweeps broadly
because ‘‘money laundering largely depends upon the use of legitimate monies to
advance or facilitate the scheme.’’ United
States v. Puche, 350 F.3d 1137, 1153 (11th
Cir. 2003) (quoting United States v. Tencer, 107 F.3d 1120, 1135 (5th Cir. 1997)).
Although we have not addressed the issue,
other circuits have held that funds ‘‘involved in’’ money laundering include those
that ‘‘facilitate’’ the money laundering
scheme, which encompasses unlaundered
funds when they are transferred ‘‘in order
to conceal the nature and source’’ of fraudulent proceeds. See id.; United States v.
McGauley, 279 F.3d 62, 76–77 (1st Cir.
2002); United States v. Baker, 227 F.3d
955, 969–70 (7th Cir. 2000); United States
v. Bornfield, 145 F.3d 1123, 1135 (10th Cir.
1998); Tencer, 107 F.3d at 1134–35. The

794

926 FEDERAL REPORTER, 3d SERIES

government offered evidence that Florence
and Michael used unlaundered funds to
facilitate the money laundering conspiracy
and conceal their proceeds by, for example, ‘‘shuffl[ing] fraud proceeds and commingled untainted funds through multiple
corporate, personal, investment, trust, and
international accounts’’ and ‘‘utiliz[ing]
commingled funds in corporate accounts in
the name of CFC and Tri-Continental to
create the appearance that they had a
legitimate real estate investment business
and an import-export business.’’ Gov’t Mot.
for Preliminary Order of Forfeiture, United States v. Florence Bikundi, No. 1:14-cr0030-1 (D.D.C. Jan. 21, 2016), ECF No.
426 at 18–20; Gov’t Mot. for Preliminary
Order of Forfeiture, United States v. Michael Bikundi, No. 1:14-cr-0030-2 (D.D.C.
Jan. 21, 2016), ECF No. 427 at 18–20.
Based on this evidence, the district court
found that the funds transferred out of
Global’s Intake Accounts were ‘‘involved
in’’ the offense because they facilitated the
money laundering conspiracy, and the
funds were thus subject to forfeiture under
§ 982(a)(1). Florence POF at 4; Michael
POF at 4. Given the lack of controlling
precedent in our circuit and the state of
the law elsewhere, we cannot say the district court plainly erred.
[70] Second, Florence and Michael
contend that the forfeiture judgments are
inconsistent with Honeycutt v. United
States, ––– U.S. ––––, 137 S. Ct. 1626, 198
L.Ed.2d 73 (2017), because they impose
joint and several liability. There, the Supreme Court held that the drug-crime forfeiture statute does not authorize joint and
several liability; instead, such forfeiture ‘‘is
limited to property the defendant himself
actually acquired as the result of the
[drug] crime.’’ Id. at 1635. Florence and
Michael maintain that Honeycutt’s logic
extends to the forfeiture statutes at issue
here, limiting their forfeitures to the criminal proceeds personally attributable to
each defendant and ‘‘no other.’’ Appellants’

Br. 89–90 & n.37 (citing United States v.
Sanjar, 876 F.3d 725, 749 (5th Cir. 2017),
which applied Honeycutt in the context of
a forfeiture under § 982(a)(7)).
The forfeiture statutes at issue in this
case arguably define forfeitable property
more broadly than that in Honeycutt, so it
is unclear whether Honeycutt’s logic extends to Florence’s and Michael’s forfeitures. Compare 18 U.S.C. § 982(a)(1), (7)
(subjecting to forfeiture the property ‘‘involved in’’ money laundering and the
‘‘gross proceeds traceable to’’ a health care
fraud), with 21 U.S.C. § 853(a)(1) (subjecting to forfeiture the drug-crime proceeds
‘‘obtained’’ by a defendant). But we need
not resolve that question because the forfeitures here do not impose joint and several liability. In calculating the forfeitures
under both § 982(a)(1) and § 982(a)(7), the
district court found that both Florence and
Michael were integrally involved with
Global’s fraudulent operations, and thus
they ‘‘jointly obtained’’ and were ‘‘equally
responsible for’’ the criminal proceeds. Tr.
27–28 (Apr. 27, 2016 AM). Based on that
finding, the court ordered each defendant
to forfeit half of the criminal proceeds.
That’s not joint and several liability, but
rather an equal division of liability between the two masterminds of the conspiracy. And since Florence and Michael ‘‘effectively treated the proceeds as joint
property,’’ id., ordering them each to forfeit half of the proceeds reasonably ensured that the forfeiture judgments did not
exceed an amount that each defendant ‘‘actually acquired,’’ Honeycutt, 137 S. Ct. at
1635.
[71–73] Third, Florence and Michael
argue that the forfeiture judgments violate
the Eighth Amendment, which prohibits
‘‘excessive fines.’’ U.S. Const. amend. VIII.
‘‘[A]t the time the Constitution was
adopted, the word ‘fine’ was understood to
mean a payment to a sovereign as punish-

U.S. v. BIKUNDI
Cite as 926 F.3d 761 (D.C. Cir. 2019)

ment for some offense.’’ United States v.
Bajakajian, 524 U.S. 321, 327, 118 S.Ct.
2028, 141 L.Ed.2d 314 (1998) (internal quotation marks omitted). The Excessive
Fines Clause thus ‘‘limits the government’s
power to extract payments, whether in
cash or in kind, as punishment for some
offense.’’ Timbs v. Indiana, ––– U.S. ––––,
139 S. Ct. 682, 687, 203 L.Ed.2d 11 (2019)
(quoting Bajakajian, 524 U.S. at 328, 118
S.Ct. 2028). ‘‘Our analysis under the Excessive Fines Clause entails two steps: (1)
determining whether the government extracted payments for the purpose of punishment; and (2) assessing whether the
extraction was excessive. The first step
determines whether the Excessive Fines
Clause applies, and the second determines
if the Clause was violated.’’ Consol.
Commc’ns of Cal. Co. v. FCC, 715 F. App’x
13, 15 (D.C. Cir. 2018) (unpublished per
curiam) (citation omitted); see Bajakajian,
524 U.S. at 328, 334, 118 S.Ct. 2028.
At the first step, the district court held
that the Clause does not apply because the
forfeitures were not punitive, but rather
‘‘purely remedial.’’ Tr. 32–33 (Apr. 27, 2016
AM). Florence and Michael argue that this
was error, see Appellants’ Br. 91–92, but
we need not address the issue. For even if
the forfeitures are punitive and thus the
Excessive Fines Clause applies, the forfeitures do not run afoul of the Clause at the
second step.
[74] A punitive forfeiture violates the
Excessive Fines Clause ‘‘if it is grossly
disproportional to the gravity of a defendant’s offense.’’ Bajakajian, 524 U.S. at
334, 118 S.Ct. 2028. At the outset, we
‘‘note the Court’s admonition that, though
this is a constitutional injury, ‘judgments
about the appropriate punishment for an
offense belong in the first instance to the
legislature.’ ’’ Collins v. SEC, 736 F.3d 521,
527 (D.C. Cir. 2013) (quoting Bajakajian,
524 U.S. at 336, 118 S.Ct. 2028). In authorizing large forfeiture judgments for the

795

crimes of which Florence and Michael
were convicted, Congress determined that
the offenses are grave, which carries significant weight in our analysis. See id.
Moreover, the total forfeiture levied
against Florence and Michael for health
care fraud corresponds one-to-one to the
amount they derived from their fraud, and
the total forfeiture levied concurrently for
money laundering likewise corresponds
one-to-one to funds involved in that crime.
Given the close match between the
amounts of the illicit funds and the ensuing judgments, the penalties were not
‘‘grossly disproportional’’ to Florence’s and
Michael’s crimes.
[75] Bajakajian confirms this conclusion. There, the Supreme Court discussed
four factors: (1) the essence of the crime;
(2) whether the defendant fit into the class
of persons for whom the statute was principally designed; (3) the maximum sentence and fine that could have been imposed; and (4) the nature of the harm
caused by the defendant’s conduct. See
Bajakajian, 524 U.S. at 337–40, 118 S.Ct.
2028; see also United States v. Varrone,
554 F.3d 327, 331 (2d Cir. 2009) (describing the four factors). These factors ‘‘hardly
establish a discrete analytic process,’’ but
we have ‘‘review[ed] them briefly to see if
there are danger signals’’ when upholding
a civil penalty challenged under the Excessive Fines Clause. Collins, 736 F.3d at
526–27.
All four factors confirm that the forfeitures imposed against Florence and Michael do not violate the Excessive Fines
Clause. (1) The essence of their crime was
grave. They personally orchestrated a
sprawling fraud involving falsified licenses,
timesheets, and bills. And far from being a
one-off violation, the scheme lasted for
years and involved numerous misdeeds. (2)
Florence and Michael fall squarely within
the class of criminals targeted by the rele-

796

926 FEDERAL REPORTER, 3d SERIES

vant forfeiture statutes: health care fraudsters and money launderers. (3) The statutes of conviction and the Sentencing
Guidelines authorize heavy prison sentences and fines. See 18 U.S.C. § 1347(a)
(10-year maximum prison sentence for
health care fraud); id. § 1956(a)(1) (20year maximum sentence for money laundering, along with a fine of twice the value
of the property involved in the money
laundering transaction); U.S.S.G. §§ 2B1.1,
3B1.1, 3B1.3, 2S1.1, 5A. (4) Florence and
Michael caused significant harm by defrauding D.C. Medicaid out of millions of
dollars meant for the needy. Such harm is
unlike that deemed ‘‘minimal’’ in Bajakajian, where the defendant failed to follow a
reporting requirement, ‘‘[t]here was no
fraud on the United States, and [the defendant] caused no loss to the public fisc.’’ 524
U.S. at 339, 118 S.Ct. 2028.
[76, 77] Florence and Michael ask us to
consider one more factor: their ability to
pay the forfeitures. On their telling, the
forfeitures are grossly disproportional because the forfeitures are ‘‘so large that
Appellants will surely never be able to pay
them,’’ and they effectively ‘‘sentence Appellants to lifetimes of bankruptcy.’’ Appellants’ Br. 91.5 Because Florence and Michael did not raise this argument in the
district court, we will reverse only if the
district court plainly erred, meaning that
the error must be ‘‘obvious’’ or ‘‘clear under current law.’’ Hurt, 527 F.3d at 1356;
5.

Although most circuits assess proportionality without considering a defendant’s ability to
pay, see, e.g., United States v. Beecroft, 825
F.3d 991, 997 n.5 (9th Cir. 2016); United
States v. Smith, 656 F.3d 821, 828–29 (8th
Cir. 2011); United States v. 817 N.E. 29th
Drive, 175 F.3d 1304, 1311 (11th Cir. 1999),
appellants’ argument draws support from the
First Circuit, see United States v. Levesque,
546 F.3d 78, 84–85 (1st Cir. 2008), and from
scholarship arguing that the original meaning
of the Excessive Fines Clause prohibits fines
so severe as to deprive a defendant of his or
her ‘‘contenement’’ or livelihood, understood

United States v. Sumlin, 271 F.3d 274, 281
(D.C. Cir. 2001). That did not occur here.
The Excessive Fines Clause does not make
obvious whether a forfeiture is excessive
because a defendant is unable to pay, and
‘‘[n]either the Supreme Court nor this
court has spoken’’ on that issue. Hurt, 527
F.3d at 1356; see Timbs, 139 S. Ct. at 688
(noting that the Supreme Court has
‘‘tak[en] no position on the question whether a person’s income and wealth are relevant considerations in judging the excessiveness of a fine’’ (citing Bajakajian, 524
U.S. at 340 n.15, 118 S.Ct. 2028)). Thus,
the district court did not plainly violate the
Excessive Fines Clause by ordering forfeitures without considering Florence’s and
Michael’s ability to pay them.
C.
[78–80] Sentencing Enhancements. Finally, Florence and Michael challenge four
of the sentencing enhancements imposed
by the district court. Both challenge the
enhancements for (1) committing crimes
involving a loss of approximately $ 80 million and (2) abusing positions of trust. Michael challenges his enhancement for (3)
playing a managerial role in the crimes,
and Florence contests hers for (4) violating
an administrative order. Upon appeal of
such enhancements, ‘‘[p]urely legal questions are reviewed de novo; factual findings are to be affirmed unless clearly erroneous; and we are to give due deference to
as the ability to secure the necessities of life,
see Nicholas M. McLean, Livelihood, Ability to
Pay, and the Original Meaning of the Excessive
Fines Clause, 40 Hastings Const. L.Q. 833,
854–72 (2013). In a similar vein, the Supreme
Court recently described the Clause as tracing
its ‘‘venerable lineage’’ back to Magna Carta,
which safeguarded the ‘‘contenement’’ of Englishmen and ‘‘required that economic sanctions TTT not be so large as to deprive an
offender of his livelihood.’’ Timbs, 139 S. Ct.
at 687–88 (citations, internal quotation
marks, and brackets omitted).

U.S. v. BIKUNDI
Cite as 926 F.3d 761 (D.C. Cir. 2019)

the district court’s application of the [sentencing] guidelines to facts.’’ United States
v. Vega, 826 F.3d 514, 538 (D.C. Cir. 2016)
(quoting United States v. Day, 524 F.3d
1361, 1367 (D.C. Cir. 2008)). Due deference
‘‘presumably falls somewhere between de
novo and clearly erroneous.’’ United States
v. Bisong, 645 F.3d 384, 397 (D.C. Cir.
2011) (quoting United States v. Kim, 23
F.3d 513, 517 (D.C. Cir. 1994) (alterations
omitted)).
1.
Loss Amount. First, the enhancements
for loss. The Sentencing Guidelines provide that, for crimes such as Florence and
Michael’s fraud, the offense level is to be
increased based on the loss involved. See
U.S.S.G. § 2B1.1(b)(1). The district court
increased Florence’s and Michael’s respective offense levels by twenty-eight points
based on a loss of approximately $ 80 million — the total amount D.C. Medicaid
paid
to
Global.
See
U.S.S.G.
§ 2B1.1(b)(1)(M) (24-point increase when
loss
exceeds
$ 65
million);
id.
§ 2B1.1(b)(7) (additional 4-point increase
when loss exceeds $ 20 million and the
offense involves a federal health care program). Reprising its earlier argument
against the MVRA loss, Florence and Michael contend that D.C. Medicaid did not
suffer a Guidelines loss of $ 80 million
because Global performed some legitimate
services. Just as this argument failed earlier, it fails here. The district court properly
applied the Guidelines’ rules for calculating
loss, particularly the general rule, the special rule, and the credit rule.

797

actual loss or intended loss.’’ U.S.S.G.
§ 2B1.1 cmt. n.3(A). Actual loss is ‘‘the
reasonably foreseeable pecuniary harm
that resulted from the offense’’; intended
loss is ‘‘the pecuniary harm that was intended to result from the offense.’’ Id. cmt.
n.3(A)(i)–(ii). The Guidelines also provide a
‘‘special rule’’ that ‘‘shall be used to assist
in determining loss’’ when sentencing defendants ‘‘convicted of a Federal health
care offense involving a Government
health care program.’’ Id. cmt. n.3(F)(viii).
There, ‘‘the aggregate dollar amount of
fraudulent bills submitted to the Government health care program shall constitute
prima facie evidence of the amount of the
intended loss.’’ Id. This evidence is ‘‘sufficient to establish the amount of the intended loss, if not rebutted.’’ Id.

[81, 82] Under the ‘‘general rule’’ of
Guidelines § 2B1.1, loss is ‘‘the greater of

[83] Here, the district court properly
found that the pervasive fraud at Global
meant that approximately $ 80 million was
fraudulently billed. Indeed, as discussed
already in Sections VII.A and B, Global
‘‘would not have operated but for [each]
defendant’s fraud,’’ and approximately
$ 80 million ‘‘was only paid due to the
defendants’ persistent and rampant fraudulent conduct.’’ Florence POF at 3; Michael POF at 3; Tr. 27 (Apr. 27, 2016 AM).
That amount constituted ‘‘the aggregate
dollar amount of fraudulent bills submitted
to the Government health care program.’’
U.S.S.G. § 2B1.1 cmt. n.3(F)(viii). Under
the special rule, these fraudulent billings
are ‘‘sufficient to establish the intended
loss,’’ unless rebutted, which Florence and
Michael made no effort to do. Id. Approximately $ 80 million was therefore the appropriate Guidelines loss.6

One clarifying point: although Global billed
D.C. Medicaid for approximately $ 81 million, the district court calculated the ‘‘fraudulent bills’’ as $ 80 million based on the
amount D.C. Medicaid paid to Global. That
may have been an error because only fraudu-

lent bills, not actual payments, establish intended loss under the special rule. See
U.S.S.G. § 2B1.1 cmt. n.3(F)(viii). Any error,
however, was harmless because it resulted in
a lower loss calculation: approximately $ 80
million instead of $ 81 million.

6.

798

926 FEDERAL REPORTER, 3d SERIES

[84] Florence and Michael object that
they performed some legitimate services,
so the loss calculation should have been
reduced under what we will call the Guidelines’ ‘‘credit rule.’’ See Appellants’ Br. 95–
96. This rule directs that ‘‘loss shall be
reduced by TTT the fair market value of
TTT the services rendered TTT by the defendant or other persons acting jointly
with the defendant, to the victim before
the offense was detected.’’ U.S.S.G.
§ 2B1.1 cmt. n.3(E)(i).
[85] The government suggests that the
credit rule is overridden by the special
rule for calculating loss in health care
fraud cases. See Appellee’s Br. 112–13. On
this point, however, we agree that both
rules apply in health care fraud cases. The
special rule states that it applies ‘‘[n]otwithstanding’’ the general rule, but makes
no such exception for the credit rule.
U.S.S.G. § 2B1.1 cmt. n.3(F). Furthermore, ‘‘the drafters of [the loss rules] knew
how to indicate that no credits would be
permitted.’’ United States v. Nagle, 803
F.3d 167, 182 (3d Cir. 2015). For example,
the special rule for misrepresentation
schemes requires that loss be calculated
without using the credit rule to reduce loss
according to the value of the misrepresented services. See U.S.S.G. § 2B1.1 cmt.
n.3(F)(v). But not so for health care fraud
cases. Because ‘‘the Sentencing Commission speaks clearly when it wants to exempt specific types of cases from the default practice of crediting against loss the
value of services rendered by the defendant,’’ the credit rule applies here. United
States v. Harris, 821 F.3d 589, 605 (5th
Cir. 2016); accord Nagle, 803 F.3d at 182.
[86] Even under the credit rule, Florence and Michael fail to show that the loss
calculation should be reduced by the value
of services rendered. U.S.S.G. § 2B1.1
cmt. n.3(E)(i). The overall burden of proving loss under the Guidelines always remains with the government. See In re

Sealed Case, 552 F.3d 841, 846 (D.C. Cir.
2009). But for the same reasons that the
district court may place on a defendant the
burden of producing evidence of legitimate
services when calculating restitution, see
supra Section VII.A, the district court may
impose on a defendant the burden of producing evidence of ‘‘services rendered’’
with a market value warranting credit under the credit rule. As we previously explained, Florence and Michael did not produce evidence of such services with any
specificity, see id., so the district court
properly refused to use the credit rule to
reduce the loss calculation. We therefore
affirm the Guidelines loss calculation and
the accompanying enhancements.
2.
[87, 88] Abuse of Trust. Florence and
Michael also challenge the enhancements
they received for abusing positions of
trust, which increased their offense levels
by two points. This enhancement applies if
a defendant ‘‘abused a position of public or
private trust TTT in a manner that significantly facilitated the commission or concealment of the offense.’’ U.S.S.G. § 3B1.3.
A position of trust is ‘‘characterized by
professional or managerial discretion (i.e.,
substantial discretionary judgment that is
ordinarily given considerable deference).’’
Id. cmt. n.1. ‘‘Persons holding such positions ordinarily are subject to significantly
less supervision than employees whose responsibilities are primarily non-discretionary in nature,’’ and the position ‘‘must have
contributed in some significant way to facilitating the commission or concealment of
the offense (e.g., by making the detection
of the offense or the defendant’s responsibility for the offense more difficult).’’ Id.
We have embraced the following factors as
guides in determining whether a defendant
held a position of trust:

U.S. v. BIKUNDI
Cite as 926 F.3d 761 (D.C. Cir. 2019)

The extent to which the position provides the freedom to commit a difficultto-detect wrong, and whether an abuse
could be simply or readily noticed; defendant’s duties as compared to those of
other employees; defendants’ level of
specialized knowledge; defendant’s level
of authority in the position; and the level
of public trust.
United States v. Robinson, 198 F.3d 973,
977 (D.C. Cir. 2000) (quoting United States
v. Shyllon, 10 F.3d 1, 5 (D.C. Cir. 1993)).
Until now, we have not addressed
‘‘whether those who seek payment from
the government for the provision of medical services’’ — like Florence and Michael — ‘‘occupy positions of trust vis-à-vis
the government.’’ United States v. Wheeler, 753 F.3d 200, 209 (D.C. Cir. 2014). The
majority of circuits that have considered
the issue have held that certain providers
may, id. at 209–10 (citing four other circuits), but the Eleventh Circuit has disagreed, see United States v. Williams, 527
F.3d 1235, 1250 (11th Cir. 2008).
[89] Consistent with the majority of
circuits, we hold that Florence and Michael
occupied and abused a position of trust.
DHCF depended on Florence and Michael
to properly exercise substantial discretion,
which is the touchstone of our inquiry
under the Sentencing Guidelines. See
U.S.S.G. § 3B1.3 cmt. n.1. For example,
although DHCF has some ability to police
home care agencies through licensing and
audits, DHCF entrusts agencies like Global with ensuring that actual beneficiaries
receive adequate services from qualified
aides based on appropriate plans of care,
and DHCF relies on the leaders of such
agencies to maintain records and submit
bills that accurately reflect such services.
These responsibilities are not rote paperwork-processing. Rather, they call for decisions and judgments that occur outside of
DHCF’s ‘‘supervision’’ and receive considerable ‘‘deference’’ from DHCF, id., leav-

799

ing the leaders of home care agencies with
ample ‘‘freedom to commit a difficult-todetect wrong,’’ Robinson, 198 F.3d at 977
(internal quotation marks omitted). In exercising their discretion, the leaders of
home care agencies are invested with
weighty duties and a high ‘‘level of public
trust,’’ id., because their actions affect the
receipt of necessary health care by individual Medicaid beneficiaries and, more generally, the continuing effectiveness of the
D.C. Medicaid program. Instead of honoring that public trust, Florence and Michael
used their positions to commit and conceal
numerous offenses.
[90] Florence and Michael claim that
the enhancement can’t apply because they
had only ‘‘an arm’s-length business relationship’’ with D.C. Medicaid, not the ‘‘fiduciary relationship’’ commonly present in
abuse-of-trust cases, such as those involving doctors or other medical professionals.
Appellants’ Br. 102, 106. But the plain text
of the Sentencing Guidelines and their application notes do not require a fiduciary
relationship. Rather, they examine whether a defendant’s position was characterized
by ‘‘professional or managerial discretion,’’
U.S.S.G. § 3B1.3 cmt. n.1, which may be
exercised by defendants who are not physicians and run commercial entities, such
as Global, see, e.g., United States v. Adebimpe, 819 F.3d 1212, 1219 (9th Cir. 2016)
(applying the enhancement to medical
equipment suppliers because ‘‘Medicare
entrusted [them] with ‘substantial discretionary judgment’ in selecting the proper
equipment, and gave them ‘considerable
deference’ in submitting claims that accurately reflected patients’ medical needs’’
(citing U.S.S.G. § 3B1.3 cmt. n.1)); United
States v. Willett, 751 F.3d 335, 344–45 (5th
Cir. 2014) (medical equipment supplier);
United States v. Bolden, 325 F.3d 471,
504–05 (4th Cir. 2003) (nursing home administrator); United States v. Gieger, 190

800

926 FEDERAL REPORTER, 3d SERIES

F.3d 661, 665 (5th Cir. 1999) (ambulance
company owners).
[91] Florence and Michael also assert
that they did not abuse a position of trust
because they did not submit bills directly
to DHCF, but rather used medical billing
companies owned by Edward Mokam. In
support, Florence and Michael invoke an
Eleventh Circuit case, United States v.
Garrison, which held that a fiscal intermediary made the defendant’s relationship
with Medicare ‘‘too attenuated’’ for the
abuse-of-trust enhancement. 133 F.3d 831,
842 (11th Cir. 1998). Because this argument is made for the first time on appeal,
we review for plain error. See Brown, 892
F.3d at 397.
[92] We find no plain error because
the case they invoke is from another circuit and it is easily distinguishable from
this case. In Garrison, the intermediary
was ‘‘charged with the responsibility of
ensuring that Medicare payments [were]
made to healthcare providers only for covered services.’’ 133 F.3d at 834. To that
end, the intermediary shouldered a ‘‘specific responsibility TTT to review and to
approve requests for Medicare reimbursement before submitting those claims to
Medicare for payment,’’ and the intermediary could reject or adjust claims, including
when it determined that the claims involved fraud or willful misrepresentation.
Id. at 834 & n.5, 841. The intermediary
here, Mokam, lacked comparable obligations. He submitted bills based on the
timesheets and documents provided by
Global, which he assumed were correct.
Mokam was not responsible for investigating whether services were legitimate, nor
certifying that the information contained in
the bills was truthful. If anything, this case
resembles United States v. Adebimpe,
which involved an intermediary who performed only ‘‘limited review,’’ i.e., processing and certifying claims ‘‘as a matter of
course, rather than scrutinizing their valid-

ity.’’ 819 F.3d 1212, 1220 (9th Cir. 2016).
Distinguishing Garrison, the Ninth Circuit
explained that the ‘‘mere presence’’ of such
an intermediary ‘‘d[id] not destroy the defendants’ position of trust with respect to
Medicare.’’ Id. This case is likewise distinguishable from Garrison, which in any
event is out-of-circuit authority. The district court therefore did not plainly err in
applying the abuse-of-trust enhancement
despite Mokam’s involvement.
[93] Finally, Florence and Michael
point out that the Guidelines prohibit the
enhancement when ‘‘an abuse of trust TTT
is included in the base offense level or
specific offense characteristic.’’ U.S.S.G.
§ 3B1.3. Their federal health care offenses, they say, already accounted for an
abuse of trust. See U.S.S.G. § 2B1.1(b)(7).
We again review for plain error. See
Brown, 892 F.3d at 397.
[94] Florence and Michael rely once
more on Garrison, which held in the alternative that the enhancement could not be
used when the conduct that formed the
abuse of trust was also the basis for the
underlying fraud. See 133 F.3d at 843. But
the Eleventh Circuit itself has since called
Garrison’s conduct-based approach ‘‘dicta.’’ United States v. Bracciale, 374 F.3d
998, 1007, 1009 (11th Cir. 2004). And other
circuits have applied the enhancement to
defendants convicted of Medicare and
Medicaid fraud, rejecting the argument
that ‘‘an abuse of trust is the essence of
the crime and therefore is already accounted for in the base level offense.’’ United
States v. Ntshona, 156 F.3d 318, 320 (2d
Cir. 1998) (per curiam); see also United
States v. Loving, 321 F. App’x 246, 249
(4th Cir. 2008) (unpublished per curiam).
Given this state of the law, plain error did
not occur. We affirm the abuse-of-trust
enhancements.

801

U.S. v. BIKUNDI
Cite as 926 F.3d 761 (D.C. Cir. 2019)

3.

4.

[95–97] Managerial Role. Although
both Florence and Michael received enhancements for their aggravating roles in
the conspiracy, only Michael challenges
the enhancement on appeal. Michael’s offense level was increased by three points
under the managerial-role enhancement,
which applies if the defendant ‘‘was a manager or supervisor (but not an organizer or
leader) and the criminal activity involved
five or more participants or was otherwise
extensive.’’ U.S.S.G. § 3B1.1(b). Applying
this enhancement, courts ‘‘should consider’’
the following factors:

[98] Violation of Administrative Order.
Finally, Florence contests the two-level enhancement she received because her fraud
involved a knowing ‘‘violation of [a] prior,
specific TTT administrative order,’’ specifically the HHS order excluding her from
participating in federal health care programs. U.S.S.G. § 2B1.1(b)(9)(C) & cmt.
n.8(c). To challenge this enhancement,
Florence reiterates that she did not know
she had been excluded. See Appellants’ Br.
107. The evidence, however, supported
that Florence knew. See supra Section
V.B.

[T]he exercise of decision making authority, the nature of participation in the
commission of the offense, the recruitment of accomplices, the claimed right
to a larger share of the fruits of the
crime, the degree of participation in
planning or organizing the offense, the
nature and scope of the illegal activity,
and the degree of control and authority
exercised over others.
Id. cmt. n.4. No single factor is dispositive,
but all defendants receiving the enhancement ‘‘must exercise some control over
others.’’ United States v. Olejiya, 754 F.3d
986, 990 (D.C. Cir. 2014) (quoting United
States v. Graham, 162 F.3d 1180, 1185
(D.C. Cir. 1998)).
Michael argues that he played ‘‘a lesser
role’’ at Global and did not control Global
employees or manage the conspiracy. Appellants’ Br. 107. But as explained in Section V, that is not what the evidence
showed. To the contrary, Michael managed
and supervised the health care fraud and
money laundering conspiracies through his
control of Global employees. He was, as
the district court found, ‘‘integrally involved as a boss at Global.’’ Tr. 54 (June 1,
2016 AM).

For the foregoing reasons, we affirm the
convictions and sentences of Florence and
Michael.
So ordered.
Rogers, Circuit Judge, concurring:
I join the court’s opinion and write separately regarding the government’s failure
to comply with Rule 16 of the Federal
Rules of Criminal Procedure.
Rule 16 requires the government to produce, upon a defendant’s request, ‘‘books,
papers, documents, data, photographs,
tangible objects, buildings or places,’’ if the
item is ‘‘within the government’s possession, custody, or control and: (i) the item is
material to preparing the defense; (ii) the
government intended to use the item in its
case-in-chief at trial; or (iii) the item was
obtained from or belongs to the defendant.’’ Fed. R. Crim. Pro. 16(a)(1)(E). Over
time, Rule 16 has been amended to provide
for broader discovery in criminal prosecutions. Adv. Comm. Note to 1993 Amendment; Adv. Comm. Note to 1966 Amendment; see also 2 CHARLES ALAN WRIGHT &
ARTHUR R. MILLER, FEDERAL PRACTICE &
PROCEDURE § 251 (4th ed. 2018). The Supreme Court and this court have recognized that broad discovery promotes in-

802

926 FEDERAL REPORTER, 3d SERIES

formed plea decisions, minimizes unfair
surprise, and helps ensure guilt is accurately determined. Wardius v. Oregon, 412
U.S. 470, 473–74, 93 S.Ct. 2208, 37 L.Ed.2d
82 (1973); United States v. Marshall, 132
F.3d 63, 69–70 (D.C. Cir. 1998); United
States v. Machado-Erazo, 901 F.3d 326,
339–40 (D.C. Cir. 2018) (Rogers, J., concurring); see also Adv. Comm. Notes to
1993 and 1974 Amendments.
In determining the scope of obligations
under Rule 16, this court has looked to
‘‘the plain language’’ of the Rule. For instance, the court held that as written the
Rule does not compel the conclusion that
inculpatory evidence is immune from disclosure, reasoning that ‘‘just as important
to the preparation of a defense [is] to know
its potential pitfalls as it is to know its
strengths.’’ Marshall, 132 F.3d at 67. Defense counsel in the instant case requested
well before trial, in July 2015, that the
government identify ‘‘all patients’’ alleged
to be involved with Global Healthcare’s
Medicaid submissions and ‘‘false and
fraudulent claims.’’ The trial date was continued on multiple occasions in order to
enable the government to complete discovery so that defense counsel could prepare
for trial. Yet three weeks into the trial,
just before the government rested its casein-chief, the government disclosed for the
first time a report purporting to show that
567 D.C. Medicaid beneficiaries for whom
Global Healthcare had received Medicaid
reimbursements did not qualify for or did
not receive personal care services. A
month before the trial the prosecutor had
requested that Don Shearer, the Director
of Health Care Operations at the D.C.
Department of Health Care Finance
(‘‘DHCF’’), figure out how to ‘‘quantify’’
the scope of the fraud by Florence and
Michael Bikundi at Global Healthcare. Trial Tr. 113 (Nov. 4, 2015 AM). The prosecutor proposed to introduce the report into
evidence through Mr. Shearer’s testimony
at trial. Defense counsel, caught unawares,

objected to admission of the report, claiming that allowing the report into evidence
at this point would be ‘‘unfair’’ sandbagging and its identification and its production were ‘‘untimely’’ under Rule 16. Trial
Tr. 16 (Nov. 3, 2015 PM).
The district court judge acknowledged
that the Assistant U.S. Attorney’s timing
in disclosing Mr. Shearer’s report after the
trial had been underway for three weeks
was ‘‘not great.’’ Id. The judge also acknowledged that the delay impaired the
defense’s ‘‘ability to scrutinize [the report]
in terms of the beneficiaries.’’ Id. at 110.
Recognizing the difficult situation in which
the prosecutor had placed the defense and
the trial court, the judge proposed to delay
Mr. Shearer’s testimony until the next day
in order to allow defense counsel the opportunity to interview him. Defense counsel objected that an overnight continuance
would hardly ‘‘cure[ ] the problem,’’ because what the defense needed was time to
investigate the data and conclusions in the
report. Id. at 19. Defense counsel reiterated that Florence and Michael were ‘‘being
ambushed.’’ Id. The judge ruled the report
could be admitted into evidence and delayed Mr. Shearer’s testimony until the
next day, observing that ‘‘any testimony
from Mr. Shearer is ripe fodder for crossexamination about the legitimacy of whatever conclusions can be drawn from this
exhibit.’’ Id. at 112.
Florence and Michael contend that, in
response to their pretrial discovery request, the government was obligated under
Rule 16 to disclose Mr. Shearer’s report
and its underlying data, and that ‘‘admission of the report on less than one day’s
notice to [them] violated their substantial
rights’’ to mount a defense. Appellants’ Br.
57. They pointed out that the government
had had control over the data, which was
central to the prosecution, and that the
government had had access to the data in

U.S. v. BIKUNDI
Cite as 926 F.3d 761 (D.C. Cir. 2019)

preparing its case for trial. If the data had
been timely disclosed to the defense, Florence and Michael maintain that they could
have investigated the listed Global Healthcare clients to determine whether they
stopped making D.C. Medicaid claims for
legitimate reasons and thereby ‘‘undermine[d] the inference [of fraud] the government asked the jury to draw.’’ Id.
In response, the government properly
does not maintain that the report falls
within the scope of the bar in Rule 16(a)(2)
of discovery of internal government documents, for the defense is to be allowed to
examine documents material to preparation of its defense. See United States v.
Armstrong, 517 U.S. 456, 463, 116 S.Ct.
1480, 134 L.Ed.2d 687 (1996). The prosecutor’s pretrial efforts to obtain what he
knew would be ‘‘compelling evidence’’ of
appellants’ fraud fits comfortably within
the mandatory disclosure obligations of
Rule 16(a)(1)(E). Trial Tr. 154 (Nov. 9,
2015 AM). Instead, the government maintains it had no disclosure obligation under
Rule 16 until it received the report. When
it did, it disclosed the report to the defense
and the district court during trial. This is
so, the government maintains, notwithstanding defense counsel’s spot-on discovery request and the prosecutor’s knowledge that Mr. Shearer was preparing an
important report in response to his pretrial request to show the full scope of
appellants’ fraud, and that the report was
not in hand when the trial began.
In maintaining it did not violate Rule 16,
the government asserts that the data used
to prepare the report was not within its
control, relying on Marshall, 132 F.3d at
68. In Marshall, the prosecutor had
learned during trial of a prior arrest record for the defendant from the Prince
George’s County, Maryland Police Department. See id. at 66. The district court
judge criticized the late disclosure of the
county police records, attributing it to the

803

‘‘sloppy police work and insufficient investigation’’ by the U.S. Attorney’s Office. Id.
at 67. But finding the decision to conduct
additional investigation mid-trial was not a
product of bad faith, the judge allowed
testimony about the police records at trial.
On appeal, this court affirmed, reasoning
that the local Maryland county law enforcement agencies were not under the
control of the U.S. Attorney’s Office for
purposes of Rule 16 discovery. Id. at 68.
The government, at best, overreads
Marshall. This court may have held Rule
16 did not encompass documents that were
in possession of a state law enforcement
agency, see id., but the court did not suggest in Marshall that the local police department had been centrally involved in
the federal investigation and prosecution,
much less been asked to prepare a report
for introduction at the trial. Here, by contrast, the D.C. Medicaid data and records
of Global Healthcare were at the heart of
the federal government’s prosecution of
Florence and Michael. DHCF investigates
Medicaid fraud and refers investigations to
the U.S. Attorney’s Offices for prosecution.
In the prosecution of Florence and Michael, Mr. Shearer was also a key witness
at trial. Significantly as well, unlike in
Marshall, 132 F.3d at 66, the new evidence
in the form of his report was not discovered during trial. On cross examination, Mr.
Shearer disclosed that prior to trial the
prosecutor had requested he prepare a
report to ‘‘quantify the amount TTT of actual fraud.’’ Trial Tr. 113 (Nov. 4, 2015 AM).
Upon producing the report at trial, the
prosecutor acknowledged that it was an
important part of the government’s casein-chief, telling the judge that the report
was ‘‘highly relevant’’ and necessary ‘‘to
establish the full extent of the fraud.’’ Trial
Tr. 15 (Nov. 3, 2015 PM). In closing argument, the prosecutor told the jury that the
report provided ‘‘very compelling evidence
that Medicaid had to pay almost $ 29,500,-

804

926 FEDERAL REPORTER, 3d SERIES

000 for 567 people [who] TTT did not qualify for or need personal care services.’’
Trial Tr. 154 (Nov. 9, 2015 AM).
Today, the court is able to assume without deciding that the government violated
Rule 16’s mandates because of the fortuitous circumstance that cross examination
of Mr. Shearer diminished much of the
sting of his report. Not completely, however, for the report laid out the scope of
appellants’ fraud in an organized form that
the jury would readily comprehend. But
insofar as the report did not address
whether there were legitimate reasons the
listed beneficiaries stopped receiving services, the district court could reasonably
conclude ‘‘any testimony from Mr. Shearer
is ripe fodder for cross-examination’’ about
the conclusions to be drawn from this report. Trial Tr. 112 (Nov. 3, 2015 PM).
Of course, the fortuity of effective crossexamination to ameliorate if not neutralize
the prejudice arising from the Rule 16
violations does not mean the prosecutor’s
pretrial request and knowledge a report
was being prepared were not material to
preparation of the defense. The district
court judge’s response at trial upon learning of the report makes this clear. Any
defense counsel would want to know the
report was being prepared before having it
‘‘sprung’’ at trial when, as any prosecutor
would be aware, a district court judge
would be unlikely to allow a lengthy delay
of trial to afford the defense time to investigate the data and conclusions in the report. By proceeding as it did, the government defeated the aim of Rule 16 to avoid
‘‘gamesmanship.’’ In forceful terms, this
court instructed in Marshall, that ‘‘a prosecutor may not sandbag a defendant by
the simple expedient of leaving relevant
evidence to repose in the hands of another
agency while utilizing his access to it in
preparing his case.’’ 132 F.3d at 69 (quotation omitted). Regrettably, the court’s instruction was prescient of what occurred in

the prosecution of Florence and Michael.
The U.S. Attorney’s ‘‘interest TTT in a
criminal prosecution is not that it shall win
a case, but that justice shall be done,’’ see
Berger v. United States, 295 U.S. 78, 88, 55
S.Ct. 629, 79 L.Ed. 1314 (1935), and in
prosecuting with ‘‘vigor,’’ id., to do so in
accordance with the rules of criminal procedure, see id. In other circumstances,
such conduct as occurred here would raise
concerns identified by the Supreme Court
and this court in view of the underlying
purposes of Rule 16 that would oblige a
district court judge to ensure an appropriate sanction for a violation of Rule 16.

,
UNITED STATES of America, Appellee
v.
Alicia NORMAN, Appellant
No. 17-3070
Consolidated with 17-3073, 17-3074
United States Court of Appeals,
District of Columbia Circuit.
Argued March 13, 2019
Decided June 11, 2019
Background: Two defendants were convicted in the United States District Court
for the District of Columbia, Nos. 1:16-cr00144-TSC-3, 1:16-cr-00144-TSC-2, and
1:16-cr-00144-TSC-1, of conspiracy to commit bribery, bribery, and conspiracy to
distribute and possess marijuana with the
intent to distribute, and third defendant
was convicted of bribery and conspiracy to
commit bribery. Defendants appealed.
Holdings: The Court of Appeals, Sentelle,
Senior Circuit Judge, held that:

EXHIBIT B

USCA Case #16-3066

Document #1809500

Filed: 10/04/2019

Page 1 of 1

United States Court of Appeals
FOR THE DISTRICT OF COLUMBIA CIRCUIT

____________

No. 16-3066

September Term, 2019
1:14-cr-00030-BAH-2
Filed On: October 4, 2019

United States of America,
Appellee
v.
Michael D. Bikundi, Sr.,
Appellant
-----------------------------Consolidated with 16-3067

BEFORE:

Garland, Chief Judge, and Henderson, Rogers, Tatel, Griffith,
Srinivasan, Millett, Pillard, Wilkins, Katsas, and Rao, Circuit Judges
ORDER

Upon consideration of Florence Bikundi’s petition for rehearing en banc joined
by Michael Bikundi, and Michael Bikundi’s supplement to the petition for rehearing en
banc; the motion of Florence Bikundi to join in the supplement to the petition for
rehearing en banc; and the absence of a request by any member of the court for a vote,
it is
ORDERED that the motion of Florence Bikundi to join in the supplement be
granted.
FURTHER ORDERED that the petition be denied.
Per Curiam
FOR THE COURT:
Mark J. Langer, Clerk
BY:

/s/
Michael C. McGrail
Deputy Clerk

